<html>
<title> - ACHIEVING DIVERSITY IN THE SENIOR EXECUTIVE SERVICE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





          ACHIEVING DIVERSITY IN THE SENIOR EXECUTIVE SERVICE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CIVIL SERVICE
                        AND AGENCY ORGANIZATION

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 15, 2003

                               __________

                           Serial No. 108-130

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
92-901                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

         Subcommittee on Civil Service and Agency Organization

                   JO ANN DAVIS, Virginia, Chairwoman
TIM MURPHY, Pennsylvania             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                MAJOR R. OWENS, New York
MARK E. SOUDER, Indiana              CHRIS VAN HOLLEN, Maryland
ADAH H. PUTNAM, Florida              ELEANOR HOLMES NORTON, District of 
NATHAN DEAL, Georgia                     Columbia
MARSHA BLACKBURN, Tennessee          JIM COOPER, Tennessee

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                    Ronald Martinson, Staff Director
        B. Chad Bungard, Deputy Staff Director and Chief Counsel
               Chris Barkley, Legislative Assistant/Clerk
            Tania Shand, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 15, 2003.................................     1
Statement of:
    Brown, William A., Sr., P.E., HAIA, president, African 
      American Federal Executives Association; Jasemine C. 
      Chambers, Chair, Asian American Government Executives 
      Network; Manuel Oliverez, president and CEO, National 
      Association of Hispanic Federal Executives; Shirley 
      Harrington-Watson, Chair, National Legislative Review 
      Committee, Blacks in Government; Patricia M. Wolfe, 
      president, Federally Employed Women; and Linda E. Brooks 
      Rix, co-chief executive officer, Avue Technologies Corp....    89
    Lovelace, Gail T., Chief Human Capital Officer, General 
      Services Administration; Jo-Anne Barnard, Chief Financial 
      Officer, U.S. Patent and Trademark Office; and Dr. Reginald 
      F. Wells, Deputy Commissioner for Human Resources, Social 
      Security Administration....................................    62
    Stalcup, George H., Director, Strategic Issues, U.S. General 
      Accounting Office, accompanied by Ron Stroman, Managing 
      Director, Office of Opportunity and Inclusiveness, U.S. 
      General Accounting Office; Ronald P. Sanders, Associate 
      Director for Strategic Human Resources Policy, Office of 
      Personnel Management, accompanied by Mark Robbins, General 
      Counsel, Office of Personnel Management; and Carlton M. 
      Hadden, Director, Office of Federal Operations, Equal 
      Employment Opportunity Commission..........................    10
Letters, statements, etc., submitted for the record by:
    Barnard, Jo-Anne, Chief Financial Officer, U.S. Patent and 
      Trademark Office, prepared statement of....................    74
    Brown, William A., Sr., P.E., HAIA, president, African 
      American Federal Executives Association, prepared statement 
      of.........................................................    93
    Chambers, Jasemine C., Chair, Asian American Government 
      Executives Network, prepared statement of..................   100
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................     6
    Davis, Hon. Jo Ann, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    Hadden, Carlton M., Director, Office of Federal Operations, 
      Equal Employment Opportunity Commission, prepared statement 
      of.........................................................    44
    Lovelace, Gail T., Chief Human Capital Officer, General 
      Services Administration, prepared statement of.............    65
    Rix, Linda E. Brooks, co-chief executive officer, Avue 
      Technologies Corp., prepared statement of..................   127
    Sanders, Ronald P., Associate Director for Strategic Human 
      Resources Policy, Office of Personnel Management, prepared 
      statement of...............................................    30
    Stalcup, George H., Director, Strategic Issues, U.S. General 
      Accounting Office, prepared statement of...................    12
    Wells, Dr. Reginald F., Deputy Commissioner for Human 
      Resources, Social Security Administration, prepared 
      statement of...............................................    79
    Wolfe, Patricia M., president, Federally Employed Women, 
      prepared statement of......................................   116

 
          ACHIEVING DIVERSITY IN THE SENIOR EXECUTIVE SERVICE

                              ----------                              


                      WEDNESDAY, OCTOBER 15, 2003

                  House of Representatives,
          Subcommittee on Civil Service and Agency 
                                      Organization,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:06 p.m., in 
room 2247, Rayburn House Office Building, Hon. Jo Ann Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis of Virginia, Davis of 
Illinois, and Norton.
    Staff present: Ronald Martinson, staff director; B. Chad 
Bungard, deputy staff director and chief counsel; Robert White, 
director of communications; Vaughn Murphy, legislative counsel; 
Chris Barkley, legislative assistant/clerk; John Landers, 
detailee; Tania Shand, minority professional staff member; and 
Teresa Coufal, minority assistant clerk.
    Mrs. Davis of Virginia. A quorum being present, the 
Subcommittee on Civil Service and Agency Organization will come 
the order.
    I want to start today by thanking all of our witnesses for 
being here. This hearing is concerned with achieving diversity 
among the top ranks of the Federal Civil Service, an important 
topic that will only grow in significance in the coming years, 
and I do want to mention and to thank our Ranking Member Danny 
Davis for requesting this hearing and for playing such a big 
role in planning it.
    The impetus for this hearing is a General Accounting Office 
report from earlier this year. The GAO predicted that over the 
next 5 years about half the members of the Senior Executive 
Service will leave government. But the GAO analysis suggests 
that the racial, ethnic and gender makeup of the SES will 
change very little. A diverse SES corps can be a strength for 
the Federal Government, and as the GAO report mentions, 
diversity is considered so important that it is one of the 
eight critical success factors by which the agencies are judged 
in the GAO's models of strategic human capital management.
    Three Federal agencies are represented here today to share 
with us their experiences in achieving diversity in the 
workplace. I'm pleased that the Office of Personnel Management 
will be revealing its Candidate Development Program today, one 
of their efforts to increase minority representation at the top 
levels of government. We discussed this program a bit at our 
succession planning hearing 2 weeks ago, but today I'm 
interested in hearing the full details.
    Finally, we're also going to discuss the new No Fear Act 
which improves agency accountability for anti-discrimination 
and whistleblower protection laws. This is a very new law, but 
we would like to hear any initial findings and reactions.
    Thank you, and I'm looking forward to hearing your 
comments.
    I would now like to recognize the ranking minority member 
of the subcommittee, Mr. Danny Davis, for any opening 
statement.
    [The prepared statement of Hon. Jo Ann Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T2901.001
    
    Mr. Davis of Illinois. Thank you very much, Madam 
Chairwoman, and let me first of all thank you for your 
leadership and also for your responsiveness and the 
relationship that we've had and continue to have as we work on 
these issues.
    I want to thank you especially for calling this hearing. As 
you know, earlier this year I requested that the subcommittee 
hold a hearing on diversity in the Federal Senior Executive 
Service. That request was based on the findings of two reports 
the GAO issued on diversity in the Senior Executive Service 
[SES], that were requested by myself and other members of the 
Committee on Government Reform.
    I thank you for not only holding this hearing this 
afternoon but also would like to thank you, Chairman Tom Davis, 
and your respective staffs for your hard work in assuring that 
the witnesses on panel two appear before us today.
    Simply stated, the GAO reports found that there is a lack 
of diversity among the SES and that unless there is some 
intervention, as predominantly White male SES members retire 
they will be replaced for the most part by White women. 
Delegate Norton and others and I requested this hearing to help 
move us forward on the very important issue of diversifying the 
highest and most influential ranks of the Federal work force, 
the Senior Executive Service.
    The hearing is to focus on the steps the Equal Employment 
Opportunity Commission and the Office of Personnel Management 
have taken to address the following issues: How these agencies 
and others will diversify their respective SES corps, how 
effectively we are recruiting minorities for Federal service 
and how agencies are being held accountable for discriminatory 
practices that hinder diversity and upward mobility in the 
workplace.
    The Director of the OPM, Kay Cole James, has met and 
corresponded with me to discuss the findings in the GAO 
reports, and to her credit in April she announced the creation 
of a new SES Candidate Development Program. We call it the CDP. 
The CDP is the first step in addressing diversity in the SES. 
The program was created by OPM to help participants develop 
their leadership skills and prepare them for senior executive 
positions they will immediately be eligible for upon 
completion.
    But this is only a first step. As Director James pointed 
out when she announced the program in April, out of the 249 
graduates from agency-sponsored CDP programs since January 
2001, 30 percent were minorities, but only 39 percent of those 
249 graduates have been placed in the SES. Agencies and this 
subcommittee have a lot more work to do to ensure that we're 
not talking about the same problem 10 years from now. This is 
not a new problem or one that is confined to Federal service. 
The Federal Government, however, should be leading the way in 
addressing it.
    As GAO stated in its most recent report, diversity can 
bring a wide variety of perspectives and approaches to policy 
development and implementation, strategic planning, problem 
solving and decisionmaking, and can be an organizational 
strength that contributes to the achievement of results.
    The Federal Government is at risk of failing to realize 
these benefits because its work force does not appropriately 
reflect the diversity of the people it serves. In last Sunday's 
issue the Washington Post Magazine contained an article 
entitled, ``Profiles in Courage: Washingtonians Tell the Truth 
about Diversity in the Workplace.''
    The article profiles 10 people who told their stories about 
how race, size, gender or ethnicity impacted their treatment in 
the workplace. In one such profile Stacey Davis Stewart tells 
of working in the housing and community development business 
where there are few Blacks and even fewer women. Stacey Davis 
Stewart is the president of the Fannie Mae Foundation. Her 
profile is one we can learn from. Ms. Stewart said she was so 
tired of being confronted and challenged in the workplace that 
her boss had to tell her to speak up in meetings because she 
really had good ideas. She was quoted as saying, ``It was like 
he had let me out of a cage. When you have a work environment 
that values people, look at the talent that unfolds.''
    Later in the article she says, ``The perspective I bring as 
an African-American female should be something that is highly 
valued, but in some cases it is not completely heard or 
respected because of the lack of diversity in that group. They 
haven't established some way of accepting difference.''
    The Federal Government has to do a better job of accepting 
difference, whether it is race, ethnicity or gender based, and 
create an environment where difference is accepted and 
appreciated. As I mentioned, agencies in this subcommittee have 
a role to play in assuring that progress is made with regard to 
this issue.
    I would like this subcommittee to hold quarterly hearings 
where agencies would be randomly selected to testify about the 
steps they are taking to diversify. By holding quarterly 
hearings, this subcommittee can hold agencies accountable for 
results. Oversight and accountability are integral to achieving 
results, particularly when agencies appear reluctant to testify 
on this issue.
    Again, I thank you, Chairwoman Davis, for holding this 
hearing and welcome the testimony of today's witnesses and look 
forward to listening to them.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T2901.002
    
    [GRAPHIC] [TIFF OMITTED] T2901.003
    
    Mrs. Davis of Virginia. Thank you, Mr. Davis, and I 
certainly appreciate you asking for this hearing today. I think 
it is a very important subject and I look forward to hearing 
from the witnesses. But I'd like to now yield to Ms. Holmes 
Norton to see if you have an opening statement.
    Ms. Norton. Yes, I do, Madam Chairwoman, and I want to 
begin by thanking you for leading this hearing today and 
affording the witnesses the opportunity to come forward and 
testify on what has been an important subject in the Federal 
service now for years, if I may say so, decades. I want to 
especially thank Mr. Davis for his consistency on this issue 
and his unfailing leadership on what is really a difficult 
issue.
    The Federal Government initially employed African Americans 
when private industry would not, so the African Americans could 
get jobs in the lower reaches of government certainly and in 
places like the Postal Service when they really would not be 
hired in other places, and for that the Federal Government 
deserves some considerable credit and has gotten that credit in 
the past.
    The problem is that is where African Americans stayed and 
that the middle and upper reaches of the Federal Government 
were simply off limits to African Americans for years, and if 
the truth be told, the situation for African Americans did not 
begin to improve until the passage of the 1964 Civil Rights 
Act. At the same time that it began to improve those in the 
private sector, and, yes, it began to improve and again the 
Federal Government--which began to use affirmative action--
indeed did better than it had done in prior decades.
    As a former chair of the Equal Employment Opportunity 
Commission, I can say to you, though, without fear of being 
contradicted that as hard as at least some in the government 
have worked, there has never been a point when the Federal 
Government could take pride in what it has done in the middle 
and upper reaches of the Federal services, never a point, and 
that point has not been reached today. The fact is that civil 
servants do not have the same rights to vindicate employment 
discrimination as they would have if they worked for any 
private company because we have not given them equality of 
rights to vindicate discrimination in the Federal service 
because they have to go through their own agencies. All of us 
would consider it absurd to ask people to apply to AT&T first 
in order to vindicate a discrimination complaint against AT&T, 
but that is exactly what we still require in the Federal 
service, and one begins to wonder if that hasn't had some 
impact on the ability of African Americans and others to reach 
their more natural places in the Federal service.
    I thank the Chair in holding this hearing and the GAO for 
their report. The continuing oversight of this committee on 
this issue says loudly and clearly the presence in the Civil 
Service is not enough, particularly when African Americans have 
been in the Civil Service as long as they have over time in the 
natural order of things, that they should be more evenly spread 
among the various categories of employment.
    This is a particularly important time to address this 
issue. We face a personnel crisis in the Federal Government 
because of the huge number of retirements that face us. Would 
it not be a tragedy not to seize this opportunity when we must 
replenish the Federal service anyway because so many are 
retiring, not to seize this opportunity to make sure we do it 
right this time by assuring African Americans, Hispanics and 
others a fair opportunity to be represented in the Federal 
service.
    I can say this. We're not going to get this opportunity 
again. Those folks are going to retire almost all at one time, 
and we're going to have to hire very quickly, especially in 
many of those agencies. If we do not seize this moment now, it 
will not pass our way again probably for decades. So the moment 
is now.
    Thank you very much, Madam Chairwoman.
    Mrs. Davis of Virginia. Thank you, Ms. Holmes Norton.
    And Mr. Davis, I want to say thank you for your suggestion 
about the quarterly meetings. We'll certainly take a look at 
that, and if it's not possible to do the meetings maybe we can 
certainly do something like ask for a quarterly report from the 
agencies. But we will take a look and see what we can do to 
accommodate you.
    I ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record and that any answers to written questions provided by 
the witnesses also be included in the record. Without 
objection, it is so ordered.
    I ask unanimous consent that all exhibits, documents and 
other materials referred to by Members and the witnesses may be 
included in the hearing record and that all Members be 
permitted to revise and extend their remarks. Without 
objection, it is so ordered.
    On this first program, we're going to hear from a number of 
agencies that have an oversight role in diversity issues. Our 
first witness today is George Stalcup, Director of Strategic 
Issues at the General Accounting Office. After him will be Ron 
Sanders, Associate Director for Strategic Human Resources 
Policy at the Office of Personnel Management. Joining him 
behind the table will be Mark Robbins, General Counsel at OPM. 
Last on this panel will be Mr. Carlton Hadden, Director of the 
Office of Federal Operations at the Equal Employment 
Opportunity Commission.
    We're all very glad to have this group here today, and it 
is the practice of this committee to administer the oath to all 
witnesses, so if you could please stand I'll administer the 
oath. If I could just have the second panel and the third panel 
stand at the same time, we can go ahead and administer the 
oath. If you will remember when you get up to testify you are 
under oath. If you'll raise your right hands, please.
    [Witnesses sworn.]
    Mrs. Davis of Virginia. Let the record reflect that the 
witnesses have answered in the affirmative, and you may be 
seated.
    And I would just remind all the witnesses that we do have 
your prepared statements on the record. So if you would like to 
summarize, you're more than welcome to do that. Mr. Stalcup, 
you're recognized first for 5 minutes.

 STATEMENTS OF GEORGE H. STALCUP, DIRECTOR, STRATEGIC ISSUES, 
  U.S. GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY RON STROMAN, 
  MANAGING DIRECTOR, OFFICE OF OPPORTUNITY AND INCLUSIVENESS, 
 U.S. GENERAL ACCOUNTING OFFICE; RONALD P. SANDERS, ASSOCIATE 
   DIRECTOR FOR STRATEGIC HUMAN RESOURCES POLICY, OFFICE OF 
  PERSONNEL MANAGEMENT, ACCOMPANIED BY MARK ROBBINS, GENERAL 
COUNSEL, OFFICE OF PERSONNEL MANAGEMENT; AND CARLTON M. HADDEN, 
   DIRECTOR, OFFICE OF FEDERAL OPERATIONS, EQUAL EMPLOYMENT 
                     OPPORTUNITY COMMISSION

    Mr. Stalcup. Thank you very much, Madam Chairwoman, 
Congressman Davis, Congresswoman Norton. I'm pleased to have 
this opportunity to discuss attrition within the Senior 
Executive Service and the challenge this poses as well as the 
opportunity it presents for helping to ensure the gender, 
racial and ethnic diversity of the Federal Senior Executive 
Corps.
    Two weeks ago this subcommittee held a hearing on 
succession planning at the Federal level. Our testimony 
stressed the importance of succession planning in building a 
diverse leadership corps and pointed out some things other 
countries have done in this regard. My testimony today 
underscores the importance of succession planning and other 
practices in ensuring diversity in the Federal Senior Corps and 
is based on our January 2003 report on the SES.
    The SES generally represents the most senior and 
experienced segment of the Federal work force. The potential 
loss of more than half of SES members between the years 2000 
and 2007 coupled with attrition in the GS-15 and 14 ranks has 
important implications for Federal agencies and underscores the 
need to focus not only on the present but also future trends 
and challenges.
    Demographics and the public served by the Federal 
Government are changing. Representation by women and minorities 
in both the government's executive corps and the succession 
pool is crucial if we expect to bring a wider variety of 
perspectives and approaches to bear on policy development and 
implementation, strategic planning, problem solving and 
decisionmaking and to provide the organizational strength that 
contributes to achieving results.
    A number of organizations have oversight responsibility for 
ensuring diversity in the Federal workplace. Key among these 
are the other two organizations on today's panel, the Office of 
Personnel Management and the Equal Employment Opportunity 
Commission, which through policy, law and regulations are to, 
No. 1, protect Federal workers from unlawful discrimination and 
other unlawful work practices and, No. 2, promote equal 
opportunity, fairness and inclusiveness.
    With these thoughts in mind, I would like to make three 
points today. First, in our January 2003 report, we estimated 
that 55 percent of the career SES employed by the Federal 
Government on October 1, 2000 will have left by October 1, 
2007. We also estimated that attrition among the GS-15 and GS-
14 ranks, the key source for executive replacements, while 
lower, would still be significant--47 percent at GS-15 level, 
34 percent at the GS-14 level.
    Second, while the past is not necessarily prolog, if 
appointment trends from 1995 to 2000 were to continue, the only 
significant change in SES diversity across government by 2007 
would be an increase in the number of White women from 19 to 23 
percent and an essentially equal decrease in the number of 
White men from 67 to 62 percent.
    Now as shown on my chart on my right and your left, the 
proportion of racial, ethnic and minorities in the SES would 
change very little over that time span, from 13.8 to 14.6 
percent.
    The chart on my left and your right on the top provides 
more detail on our projection, with governmentwide SES numbers 
by gender, racial and ethnic category. The first set of figures 
on that chart represent the number of SES in place on October 
1, 2000. The middle set of figures show the number of those 
that would still be in place as of October 1, 2007. And the 
figures on the right show what the profile that would result if 
they were replaced at the same appointment trends that were 
used from 1995 to the year 2000.
    Now, those numbers represent a governmentwide picture. The 
third chart below shows that our projections vary by agency. 
For 10 of the 24 large agencies, projections show less minority 
representation in 2007 than in the year 2000. For 12 agencies 
they showed increases.
    My final point is that upcoming retirements and other 
attrition will provide the Federal Government with both a 
challenge and an opportunity. The challenge will be to develop 
succession plans based on inclusive strategies for having 
sufficient numbers of senior executives in place to develop and 
implement policies and programs of the Federal Government. The 
opportunity will be to help ensure diversity in the SES corps 
through new appointments. Based in part on our work on the SES 
corps and in other human capital areas, we have seen positive 
responses on the part of EEOC, OPM and other agencies in this 
regard, and commenting on our report last January, agencies 
agreed that more needed to be done and pointed to a number of 
ongoing and planned efforts aimed at increasing diversity 
within the executive branches. I anticipate we will hear more 
about those efforts this afternoon.
    Continued leadership from OPM and EEOC coupled with a 
strong commitment on the part of agency managers through such 
actions as succession planning and holding executives 
accountable for the diversity in the work forces they manage 
would help ensure the diversity of future Federal senior 
executive leadership.
    Madam Chairwoman and members of this subcommittee, this 
concludes my prepared statement and I will be pleased to answer 
any questions you may have.
    [The prepared statement of Mr. Stalcup follows:]

    [GRAPHIC] [TIFF OMITTED] T2901.004
    
    [GRAPHIC] [TIFF OMITTED] T2901.005
    
    [GRAPHIC] [TIFF OMITTED] T2901.006
    
    [GRAPHIC] [TIFF OMITTED] T2901.007
    
    [GRAPHIC] [TIFF OMITTED] T2901.008
    
    [GRAPHIC] [TIFF OMITTED] T2901.009
    
    [GRAPHIC] [TIFF OMITTED] T2901.010
    
    [GRAPHIC] [TIFF OMITTED] T2901.011
    
    [GRAPHIC] [TIFF OMITTED] T2901.012
    
    [GRAPHIC] [TIFF OMITTED] T2901.013
    
    [GRAPHIC] [TIFF OMITTED] T2901.014
    
    [GRAPHIC] [TIFF OMITTED] T2901.015
    
    [GRAPHIC] [TIFF OMITTED] T2901.016
    
    [GRAPHIC] [TIFF OMITTED] T2901.017
    
    [GRAPHIC] [TIFF OMITTED] T2901.018
    
    Mrs. Davis of Virginia. Thank you, Mr. Stalcup.
    Mr. Sanders, you're recognized for 5 minutes.
    Mr. Sanders. Thank you, Madam Chairwoman, members of the 
subcommittee. I appreciate the opportunity to appear before you 
today on behalf of Director Kay Cole James to testify on OPM's 
efforts to address underrepresentation in the Federal 
Government's Senior Executive Service. Mr. Mark Robbins, OPM's 
general counsel, is also with me today to address any questions 
you may have on the No Fear Act.
    Madam Chairwoman, I believe that we all share a goal that 
is simply stated, an SES corps that reflects the diversity of 
America's citizenry. You can rest assured that the President 
and Director James are unequivocally committed to achieving 
that goal. It represents a mission imperative. We believe that 
a more diverse SES will result in a Federal Government that 
better serves our citizens, the ultimate objective of the 
President's management agenda, and they appreciate the 
leadership you and your subcommittee have provided in this 
area.
    Madam Chairwoman, the fact is that the SES today is not as 
diverse as it should be, and although we've seen some gradual 
improvement in this regard, progress remains slow. So the 
challenge remains, and it's one that is not amenable to quick 
fixes. Rather, as you know only too well, it's all about 
succession planning, managing the Federal Government's 
leadership development pipeline over a multiyear timeframe and 
paying attention to its diversity as we do so.
    As your hearing 2 weeks ago underscored, a diverse SES 
depends in large part on a diverse candidate pool. That is 
where OPM's new Federal SES candidate development program comes 
in. Designed to complement the executive development strategies 
of individual agencies, including those that already have their 
own CDPs, it incorporates the very best practices in leadership 
development, lessons drawn from organizations, both public and 
private, that have set the standard for connective excellence 
and diversity.
    In developing our program, we took into account the 
Constitutional limits upon efforts of affirmative outreach 
toward traditionally underrepresented groups. OPM CDP is 
designed to operate within those limits. It is a racially 
neutral program. Race plays no part in the candidate selection 
process. OPM's challenge is to create a diverse pool of 
applicants by ensuring that those qualified members of 
traditionally underrepresented groups know about the program 
and are encouraged to apply.
    We can do this through Constitutionally accepted standards 
for outreach. Thus, while a program is not and cannot be 
reserved for the exclusive development of leaders from 
underrepresented groups, we believe that includes a number of 
innovative features that will help us accelerate the 
accomplishment of that goal.
    First and foremost, our program enjoys the strong 
commitment of this administration's most senior leaders, 
including the members of the new Chief Human Capital Officers 
Council. All of its members are keenly aware of the executive 
succession challenge that we all face; and as our program's 
ultimate board of directors, they are sensitive to diversity 
issues, as they work to ensure continuity of leadership 
excellence in their agencies.
    Second, our program is uniquely demand driven, designed to 
find and develop high caliber successors to replace an agency's 
specific projected SES losses. This is in contrast to many 
agencies' CDPs, which attract, develop and graduate many 
talented candidates who never reach the SES, largely because 
they are not part of an effective succession strategy.
    Third, while we obviously cannot guarantee the diversity of 
our program's candidates, or for that matter the SES itself, we 
can increase the odds of both by actively and aggressively 
reaching out to all sources for the most diverse pool of 
potential executive talent that we can. We've already actively 
engaged in the various organizations that represent the 
interest of female and minority Federal employees, many of whom 
are here today to help us in this regard.
    In addition, unlike most agency CDPs, we intend to open our 
program to all U.S. citizens, not just current and former 
Federal employees, a reservoir of potential talent that is 
substantially broader and substantially more diverse than the 
typical agency CDP applicant pool. We also intend to conduct 
targeted print, electronic and direct marketing to and through 
minority, disabled employees and female professional 
associations that are potential conduits to that talent pool.
    Fourth, our applicant screening and assessment process will 
be based on merit and merit alone. Conducted jointly with 
participating agencies, OPM will identify the most outstanding 
applicants, and participating agencies will then have the 
opportunity to select one or more candidates from this finalist 
cadre, appointing them to a full-time developmental position at 
the GS-14 or 15 level.
    Fifth, participants in our program will benefit from a 
series of intensive leadership development activity 
specifically designed to prepare them for the SES. The program 
will be hands-on and experiential, with each individual having 
the opportunity to actually practice and demonstrate leadership 
in one or more executive level assignments. To support these 
assignments, OPM will provide each participating agency with a 
temporary SES allocation. Those that graduate will be certified 
by an OPM SES qualification review board and be eligible for 
noncompetitive promotion to the SES.
    Finally, no effort as important as this would be complete 
without some means of assuring accountability. We now have such 
a mechanism. As part of the President's management agenda, OPM 
has established a human capital assessment and accountability 
framework as a means of evaluating how well agencies are 
managing their people. It includes standards for dealing with 
work force diversity and leadership succession. Agencies that 
do not meet these standards do not receive high marks; and 
those marks are accorded to the President, I can assure you 
that they matter.
    Can we absolutely guarantee that our program will improve 
diversity in the SES? No, we cannot. However, we can and will 
do everything we possibly can to ensure that its applicant pool 
truly reflects America's diversity, that its candidate 
assessment process is absolutely free from any improper bias, 
that final selections involve senior agency leaders who 
understand the importance of and are committed to leadership 
excellence, continuity and diversity, and that agencies are 
held accountable for their efforts.
    Before I conclude, let me turn briefly to the No Fear Act. 
This summer the President delegated to OPM the responsibility 
to promulgate regulations implementing the act. Toward that end 
we've been working with the Justice Department, the Treasury 
Department, Office of Special Counsel and the EEOC. We've also 
had discussions with external stakeholders, including the No 
Fear Coalition. Regulations implementing the judgment fund 
reimbursement provisions of the act have been drafted and are 
currently being reviewed by OMB.
    Further, we're drafting regulations that will implement the 
additional sections of the act.
    Madam Chairwoman, in his landmark management agenda the 
President has recognized the Federal Government's work force as 
one of its most valuable assets, that our employees are a 
national resource and that the American people expect them to 
be managed efficiently and effectively. They also expect them 
to reflect their own diversity, from the front line to the 
executive suite. The President and Director James are 
unequivocally committed to that goal. Our new CDP represents 
part of that commitment, and we believe that it will ensure a 
ready reservoir of exceptional SES candidates and eventually an 
SES corps that reflects the diversity of America.
    I'll be pleased to answer any questions. Thank you.
    [The prepared statement of Mr. Sanders follows:]

    [GRAPHIC] [TIFF OMITTED] T2901.069
    
    [GRAPHIC] [TIFF OMITTED] T2901.070
    
    [GRAPHIC] [TIFF OMITTED] T2901.071
    
    [GRAPHIC] [TIFF OMITTED] T2901.072
    
    [GRAPHIC] [TIFF OMITTED] T2901.073
    
    [GRAPHIC] [TIFF OMITTED] T2901.074
    
    [GRAPHIC] [TIFF OMITTED] T2901.075
    
    [GRAPHIC] [TIFF OMITTED] T2901.076
    
    [GRAPHIC] [TIFF OMITTED] T2901.077
    
    [GRAPHIC] [TIFF OMITTED] T2901.078
    
    [GRAPHIC] [TIFF OMITTED] T2901.079
    
    [GRAPHIC] [TIFF OMITTED] T2901.080
    
    Mrs. Davis of Virginia. Thank you, Mr. Sanders.
    Mr. Hadden, thank you for coming, and now you're recognized 
for 5 minutes.
    Mr. Hadden. Good afternoon, Madam Chairwoman and members of 
the subcommittee. I appreciate opportunity to appear before you 
today on behalf of Cari M. Dominguez, Chair of the U.S. Equal 
Employment Commission. EEOC agrees with GAO that the projected 
large losses in the SES ranks over the next few years present 
the Federal Government with both a unique challenge and an 
opportunity.
    As a critical step toward leading the government toward a 
more inclusive workplace, the Commission unanimously voted to 
approve new guidance effective October 1st of this year to 
Federal agencies on how to meet their responsibilities and 
structure their EEO programs required by Title VII of the Civil 
Rights Act and Section 501 of the Rehab Act of 1973.
    It should be noted that prior to the final approval of the 
directive, the Commission distributed an earlier draft to 
Federal agencies for review and comment pursuant to the 
requirements of Executive Order 12067, and much of the input 
received from agencies was in fact incorporated into the draft.
    The Commission plans to develop operational instructions 
for the agencies and anticipates issuing those instructions 
before the end of the calendar year to agencies.
    The new directive requires agencies to take appropriate 
steps to ensure that all employment decisions are free from 
discrimination and is designed to reemphasize that the quality 
of opportunity for all in the Federal workplace is key to 
attracting, developing and retaining top quality employees who 
can deliver results, ensure our Nation's continued security, 
growth and prosperity.
    The directive requires agencies to systematically and 
regularly examine their employment policies and practices to 
identify and remove barriers to free and open workplace 
competition. Plans for addressing barriers will be developed by 
the agencies and progress toward removing those barriers will 
be monitored by the Commission.
    The Commission believes it is critical for agencies to pay 
special attention to potential barriers to entry and to those 
successor pools of GS-15s and 14s with a focus on those 
positions which would typically lead to senior level 
management.
    In addition, potential barriers should be examined not only 
in selection to GS-14 and 15 feeder pools but also the early 
development of high potential employees at lower grades and to 
other training and developmental opportunities which increase 
qualifications for future SES positions.
    An important component of the MD-715 is defining of the 
following essential elements for structuring model EEO programs 
at Federal agencies. It is the Commission's belief that 
attainment of a model EEO program at an agency will provide the 
infrastructure necessary for the agency to achieve the ultimate 
goal of a discrimination-free work environment characterized by 
an atmosphere of inclusion and free and open competition for 
employment opportunities. The six elements are as follows: 
First, demonstrated commitment from agency leadership; second, 
integration of EEO into the agency's strategic mission; third, 
management and program accountability; fourth, proactive 
prevention of unlawful discrimination; fifth, efficiency; and, 
sixth, responsiveness and legal compliance.
    We also should know that MD-715 addresses the unique 
challenges which face employees with disabilities. Although not 
addressed by the GAO report, this is an area of particular 
concern to the Commission.
    In fiscal year 2002 the percentage of employees with 
targeted disabilities in the Federal work force decreased for 
the 5th consecutive year, stretching this decline to 20 percent 
over the last decade. Agencies must make immediate and 
significant improvements in the ability to provide 
opportunities to qualified individuals with disabilities to 
work and compete equally for all levels of positions within the 
Federal Government.
    Complementing the Commission's efforts with MD-715 is the 
recent passage of the No Fear Act. EEOC has responsibility for 
issuing governmentwide regulations under Title III of that act, 
and that requires agencies post on their public Web sites on a 
quarterly basis information pertaining specifically to the 
processing of administrative complaints of employment 
discrimination filed under 29 CFR, Part 1614.
    This summer the Commission voted on proposed interim 
regulation under Title III of the No Fear Act. Following the 
Commission's vote, the regulation was circulated for agencies 
for review, comments were received from 23 agencies. Revisions 
were made based on the revised comments, and the Commission 
voted to approve the proposed interim regulation late last 
week, and that has now been submitted to the Office of 
Management and Budget for approval.
    The No Fear Act should provide the Federal Government one 
more tool to assist in efforts to identify and eliminate 
barriers to equal opportunity for all to compete for positions 
at senior levels. As the act states, agencies cannot run 
effectively if they practice or tolerate unlawful 
discrimination. The No Fear Act is designed to hold agencies to 
greater accountability in compliance with the nondiscrimination 
laws.
    Through the various mechanisms available under the act, 
agencies should be more aware of and responsive to issues of 
discrimination and retaliation in their agencies. We anticipate 
that this heightened awareness will be positively reflected in 
agency management of personnel practices and, to the extent 
that discriminatory practices are placing barriers to equal 
employment opportunity in the SES work force, lead toward the 
elimination of practices and create a level playing field.
    Thank you. I'll be glad to answer any questions that you 
may have.
    [The prepared statement of Mr. Hadden follows:]

    [GRAPHIC] [TIFF OMITTED] T2901.019
    
    [GRAPHIC] [TIFF OMITTED] T2901.020
    
    [GRAPHIC] [TIFF OMITTED] T2901.021
    
    [GRAPHIC] [TIFF OMITTED] T2901.022
    
    [GRAPHIC] [TIFF OMITTED] T2901.023
    
    [GRAPHIC] [TIFF OMITTED] T2901.024
    
    [GRAPHIC] [TIFF OMITTED] T2901.025
    
    [GRAPHIC] [TIFF OMITTED] T2901.026
    
    Mrs. Davis of Virginia. Thank you, Mr. Hadden, and as I 
generally do in this subcommittee, I'm going to begin the 
questioning by yielding to my ranking minority member, Mr. 
Davis.
    Mr. Davis of Illinois. Thank you very much, Madam 
Chairwoman, and I certainly want to thank all of the witnesses 
for their testimony.
    You know I was smiling to myself, because it seems as 
though I can't get away from my mother in terms of always 
remembering something that she said to us. She used to tell us 
that charity begins at home and spreads abroad. And I was 
thinking that the first question I might want to ask is would 
each one of you discuss the number of SES openings in your 
agency and how you go about filling them.
    Mr. Stalcup. If I could start out, I could ask Ron Stroman, 
who is the Managing Director of our Office of Opportunity and 
Inclusiveness, to come to the table--he was sworn in--and 
respond to that question.
    Mr. Stroman. Thank you, Mr. Davis. Let me begin by talking 
about the manner in which we fill the SES positions. 
Essentially we have a feeder group that comes from our Band III 
employees, our analysts at the Band III level. Essentially what 
we do is we have a Candidate Development Program in which staff 
is pooled from the Band IIIs, and we have developmental staff 
who go through a fairly rigorous SES process. After completion 
of that process, they then emerge into the SES. Diversity 
principles are essentially one of the cornerstones in selection 
of people into the SES. So, for example, in our most recent SES 
candidate pool of the nine SES candidates, we have two of those 
nine are African American women, and we wanted clearly to make 
sure that they were clearly represented.
    In terms of the actual numbers in the SES, let me give 
those to you, Mr. Davis.
    In our career SES pool right now, there are approximately 
9.1 percent of the SES is African American, 3.3 percent of that 
SES pool is Hispanic, and 4.1 percent is Asian.
    Mr. Davis of Illinois. Thank you. Mr. Sanders.
    Mr. Sanders. Thank you, Mr. Davis. As you know, Director 
James practices what she preaches. OPM has just gone through a 
major restructuring, perhaps the most dramatic in its 
relatively short history, and we've just finished filling 
almost 20 new SES positions. We now total about 60 or so SES 
positions in the agency, and we're far above the average in the 
Federal Government. First, let me point out when we filled 
those jobs, we went to all-source recruiting. We opened it up 
for everybody. We had almost 1,000 applicants with about half 
from outside the Federal Government, half from within. And we 
ended up of the 20 positions we selected, one-third of those 
were non--former non-Federal employees that came from the 
private sector or the military services.
    The net result, an SES corps that we believe is a model; 10 
percent of OPM's corps is African American, 10 percent 
Hispanic, 2 percent Asian Pacific islander. Women constitute 37 
percent. We've got two people who are going to enter our own 
candidate development program, and we've also brought in for 
the first time in several years a class of 20 new Presidential 
management interns, and, again, they are just as diverse. Of 
those 20, 6 are African American, 12 are women and 4 Hispanic.
    Thank you.
    Mr. Davis of Illinois. Thank you very much.
    Mr. Hadden. The Commission is in a unique position. We are 
in a hiring freeze and we don't have SES openings, but the 
Commission has in fact planned; and what we have done is 
established a candidate development program in fiscal year 
2001, and of the candidates in that program, they reflect a 
diversity of the Commission. There are 6 candidates and 83 
percent are women and 33 percent are Hispanic and 33 percent 
are African American.
    In regard to the Commission's current profile, the way we 
look today, I think we're probably--I don't want to say the 
most diverse Federal agency, but I think we're amongst the top. 
In fiscal year 2003, minorities constitute 56 percent of the 
SESers at the Commission. Women constitute 46 percent of the 
SESers at EEOC.
    Mr. Davis of Illinois. Thank you very much. Madam 
Chairwoman, I know that my time is about to expire. So I'm 
going to ask could we have a second round with this group? I 
know we've got three panels, but----
    Mrs. Davis of Virginia. I think we can allow for a second 
round.
    Mr. Davis of Illinois. Thank you.
    Mrs. Davis of Virginia. Ms. Holmes Norton.
    Ms. Norton. From OPM is it Mr.----
    Mr. Sanders. Sanders, yes, ma'am.
    Ms. Norton. I'm looking at the GAO report, and I'm looking 
at page 6, number of SES percentages of women and minorities on 
October 1st. And this is where he does projections. With 
minorities there are 12 agencies that probability increases. 
Eight agencies--I'm just looking at this for the first time, so 
you just correct me if I'm wrong--that probability decreases. 
And one of them is OPM, in minorities, minus 2.3. Percentage--
and yet the figures you have just given of fairly large numbers 
of people in your pool now--and I'm looking at percentage on 
October 1, 2007 using current appointment trends and percentage 
change from October 1, 2000. And I'm looking at OPM, and I'm 
wondering why of all places OPM would be projecting minus 2.3 
change in minorities.
    Mr. Sanders. Ms. Norton, those are GAO's projections, and 
that I think underscores a flaw in their report. It's a flaw 
that they recognize. It's grounded on the assumption that what 
was will be.
    Ms. Norton. Well, that's the only thing they have to go by, 
sir.
    Mr. Sanders. It is and I'm not faulting their methodology. 
Their projections are based on an October 2000 base. It 
projects forward to October 2007, and it simply assumes that 
the way OPM filled its SES jobs in the past will be the way OPM 
fills its SES jobs through 2007. Director James has taken 
advantage of the restructuring of the agency to fundamentally 
change that assumption. So those projections are wrong, and we 
hope that frankly all of them are wrong. I think GAO would 
support that. It's simply an extrapolation of history, and we 
all know we can change history.
    Ms. Norton. What do you have to say, Mr. Stalcup?
    Mr. Stalcup. Well, we did make projections. Our point was 
to raise the red flag that large numbers would be leaving, and 
if the hiring and appointment trends from the late 1990's 
persisted through 2007 this is where we would end up. Again, 
this was a projection. It was a warning flag. It was in no way 
a prediction. In fact, it was just the opposite, of trying to 
raise the issue so that in fact change did happen.
    Ms. Norton. Could I ask you further, Mr. Stalcup, you're 
looking at, I presume, the Federal work force as if in fact 
jobs are going to be filled in the normal way in which they 
were filled, and yet we are seeing the administration come here 
with bills for contracting out huge numbers of jobs, often in 
the largest agency. I wonder if we're talking about the same 
kind of work force that would be in fact depending on the Civil 
Service to do its work.
    I recently saw a chart on the growth in Federal employees, 
and if you include people who were contracted out, it was a 
million employees contracting out over which we have nothing to 
say about the gender or virtually nothing to say except through 
the normal process that we use on of course private sector 
employees and keeping their records; but we have--what you see 
are a huge block of jobs that are going outside of the work 
force, and I wonder if you've taken that into account in 
projecting how many SES positions are going to be available or 
might in fact disappear because the Federal work force is 
disappearing as we speak.
    Mr. Stalcup. Well, again, our projections were based on 
what in fact happens from the years 1995 to 2000. During that 
course in time undoubtedly there was some contracting out. So 
to the extent that dynamic of contracting out goes up after 
that period of time, our projection would not have covered 
that.
    Ms. Norton. That could mean fewer SESs altogether, just 
like----
    Mr. Stalcup. Again, our study did not cover that. I 
understand your question. It is a good question, but it was not 
covered in this study.
    Ms. Norton. Thank you very much.
    Mrs. Davis of Virginia. Thank you, Ms. Holmes Norton. So 
let me, Mr. Stalcup, Mr. Sanders, make sure I understand it. 
The projections were based on if we did the same thing 
yesterday--if we did what we did yesterday, if we're doing it 
today, then we'd be in the same place tomorrow. And in fact 
that is not true, at least for OPM, because you changed the way 
you were doing things. Is that correct?
    Mr. Stalcup. Yes, ma'am.
    Mrs. Davis of Virginia. When we talk about improving 
diversity, there's been a suggestion about one of the ways to 
bring more members of the minority groups into the Federal 
Government is through the hiring process, but all of that is 
based on the fact that--or the assumption that we're going to 
have all these retirements or loss of jobs through attrition. 
Does that still hold true? I guess this would be to OPM. Do you 
all have any projections as to how many vacancies there's going 
to be? I mean----
    Mr. Sanders. Yes, ma'am. Those retirements will occur. 
They've been deferred for various reasons. You know, 
anecdotally people say the economy, they're waiting for it to 
pick up before they look at a post Federal career, etc. All we 
know is that the number of folks who were eligible to retire in 
the Senior Executive Service continues to grow. In effect, 
we've created a bow wave. If anything, we may see a greater 
rate of retirements. Even though the eligibility is creeping 
up, the fact is that they may all go over a shorter period of 
time once they decide to. So the opportunities are going to be 
there. They've just been deferred slightly, and frankly, that 
gives us an opportunity to prepare the successor pool for them.
    Mrs. Davis of Virginia. So we're still looking 2004, 2005 
where we can make the greatest change in the percentage of 
diversity?
    Mr. Sanders. Yes, ma'am.
    Mrs. Davis of Virginia. Mr. Stalcup, I know that recruiting 
takes a lot of effort, and if human resources offices and 
agencies are understaffed, which I think some probably are, 
maybe they need to get outside help for at least a short term.
    Do you know, do any of the Federal agencies use what we 
call executive head hunters to fill any of their positions and 
to bring in greater diversity? Do you know if any of the 
agencies are doing that?
    Mr. Stroman. Mrs. Davis, no, we're not aware of the use of 
executive head hunters in any particular agency, although as 
Mr. Stalcup indicated, we did not look at that issue to 
determine that. So there is perhaps an outside possibility, but 
it's nothing that we examined.
    Mrs. Davis of Virginia. So if they were using outside 
agencies, outside head hunters, how would we control that? I 
mean, how would we make the changes for greater diversity if 
that were happening, because we don't--I think what you're 
saying is you don't know for sure. Right?
    Mr. Stroman. Right.
    Mr. Stalcup. We don't. But I believe it's factors like that 
need to be considered, and what we talked about. The bottom 
line message of our report is the need for the long-term 
succession planning to be able to know with some certainty 
where you're going to be and what your needs are going to be as 
the years unfold, so that you can plan ahead and, in fact, have 
not only the people immediately available but the pipeline 
backing that up that will feed into what you need over time.
    Mr. Stroman. The other issue, Mrs. Davis, is that what you 
would have to do is if you were contracting with an outside 
agency is what you would do with any contractor. That is, if 
you wanted diversity to be part and parcel of the pool, the 
people that you are recruiting, I think you would have to make 
it abundantly clear to the contractor that this was an 
important part of what they were expected to do and then hold 
them accountable for the results as you would hold your own 
employees accountable for those results.
    Mrs. Davis of Virginia. So it ultimately falls back on the 
different agencies and the agency heads?
    Mr. Stroman. That's correct.
    Mrs. Davis of Virginia. Which brings me to the question I 
personally have is how do we make sure that our agencies and 
those who are responsible within the agencies know what they're 
supposed to be doing, and how do we get the message out to 
them?
    Mr. Sanders. I think hearings like this do. I think the 
fact that it is now part of the human capital assessment and 
accountability framework. It's part of GAO's models. So as we 
evaluate agencies, we look at those things. As they evaluate 
agencies, they look at them. And hearings like this highlight 
them on a periodic basis. The Chief Human Capital Officers 
Council has addressed this on a number of occasions. So, too, 
has the Interagency Task Force on Hispanic Employment that 
Director James chairs. So I can tell you that the awareness has 
certainly been elevated, and I think hopefully action will 
follow.
    Mrs. Davis of Virginia. What happens if action doesn't 
follow?
    Mr. Sanders. I think as I said in my statement, the best we 
can do is focus on creating as diverse an applicant pool as we 
possibly can at all levels of the Federal Government, including 
for SES vacancies, and then we have to trust the merit process 
to achieve the right result, the best person for the job.
    Mrs. Davis of Virginia. Those questions were just for my 
own personal use, by the way, because I just wanted to make 
sure how we're doing it and who is doing it and are we going to 
have to hold this hearing every year infinitum until we find 
out what we're supposed to be doing.
    I'm going to go ahead and stop and let Mr. Davis have a 
second round.
    Mr. Davis of Illinois. Well, thank you very much, Madam 
Chairwoman.
    Mr. Stalcup, in your testimony as you were giving it, you 
indicated that as you spoke with executives in different 
agencies, that they all pretty much agreed that something more 
needed to be done, that obviously we were not doing enough. Did 
any of them indicate that they were going to do anything? I'm 
saying they agreed that something needed to be done, but did 
they also indicate that they were in the process of doing 
something?
    Mr. Stalcup. Absolutely. Again, we have a formal comment 
process whenever we do any report. So we had written comments 
from all the agencies involved, OPM, EEOC and then several of 
the line agencies also. And across the board, as you say, all 
agreed with the need that more needed to be done. All were able 
to cite specific actions that they had under way or on the 
drawing board, so to speak, to get that done. The candidate 
program that Mr. Sanders referred to is one of those at OPM. 
EEOC, during the course of the past year, has issued a new 
strategic plan. The witness talked about Management Directive 
715, which provides many of the needed actions on the part--I 
think now the key is the roadmap is kind of laid out there. 
It's going to require follow-through on the part of OPM, EEOC 
as well as the agency managers themselves.
    Mr. Davis of Illinois. Mr. Sanders, you indicated that 
progress obviously is slow, that change oftentimes is indeed--
much of the time it's much more covert than overt. But you also 
indicated that the new candidate development program was race 
neutral, and if it's to be race neutral, how is there assurance 
that race will be impacted in terms of changing the composition 
of the work force?
    Mr. Sanders. Mr. Davis, we can't make that assurance. What 
we can assure you of is that we're going to do everything we 
possibly can to reach out to ensure that we have an applicant 
pool that is as diverse as we possibly can make it. I've 
outlined some actions that I think we can take that will 
improve the diversity of that applicant pool over agency 
experience to date. But once we've done that we have to trust 
the merit process to run its course. We can't provide 
preference or anything like that. There are Constitutional 
limits by which we are bound.
    Mr. Davis of Illinois. So we are operating on the theory 
that much of the problem had to do with the applicant pool and 
that there weren't enough people in the pool that through the 
normal process of extracting out the best, that we would also 
have the kind of diversity that is desired?
    Mr. Sanders. I think all you have to do is look at the 
feeder pool of GS-14s and 15s, primarily GS-15s. That's 
typically where agencies draw from for candidate development 
programs and SES positions. It's not much more diverse than the 
SES corps. And that is in gross numbers. It's not talking about 
locations and occupations and specific demand and requirements. 
So it is kind of a roll of the dice if all you're doing is 
looking at GS-15s as your source for executive candidates. One 
of the things we know we can do is go beyond that candidate 
pool, look outside the confines of the Federal Government. 
There's lots of talent out there and, again, increase the 
diversity of the people we're considering and trust the merit 
process to do its thing.
    Mr. Davis of Illinois. Let me ask you this. I recently 
heard of a situation in an agency where essentially one person 
for the last 20 years has pretty much determined who the 
individuals were who got promoted or who moved up into the SES 
ranks. Could that happen under any scenario that you could 
think of in terms of policies and practices?
    Mr. Sanders. I suppose it could, but, again, looking 
forward I do think one of the subtle but important changes that 
has occurred, in part thanks to the actions of the Congress, is 
the creation of these new chief human capital officers in the 
major departments and agencies. Those are the individuals who 
will be held accountable. They have stewardship responsibility 
for the way the agency manages its people, and if you looked at 
the folks who have been named as CHCOs, as chief human capital 
officers, they are far more senior than, for example, agency HR 
directors in the past. These are individuals who take that 
accountability seriously.
    I've sat through a couple of meetings now that the CHCOs 
council has had. So while in theory that could happen, one 
person could control it and for whatever purposes he or she 
wanted, I think that is now changing as we're elevating the 
importance of the human capital business and the people who are 
responsible for it, again in part thanks to hearings like this.
    Mr. Davis of Illinois. And Madam Chairwoman, with your 
indulgence my last question would be to Mr. Hadden, and that is 
if we find that agencies don't really have the feeder pools 
that are necessary, what should happen to make sure that those 
feeder pools are in fact adequate?
    Mr. Hadden. Well, I think under MD-715, what we would hope 
agencies would do, and each agency circumstance may be 
different, is to examine what are the factors which caused that 
to occur, why aren't there people in the pipeline. That may be 
an example of looking at are there training opportunities being 
shared throughout the agencies, throughout the organization. We 
expect an agency to look at its own particular circumstances. 
It's not as easy as a stock answer for how each agency would 
deal with that, but we would expect each agency to look at its 
own practices, and we would then monitor and see for ourselves 
what barriers might have existed to keep that from happening.
    Mr. Davis of Illinois. Thank you very much, Madam 
Chairwoman. I know that my time is up, and I appreciate the 
indulgence.
    Mrs. Davis of Virginia. Thank you, Mr. Davis.
    And Mr. Davis, I would just say that we will have written 
followup questions for all three of the panels that we would 
ask that you would answer and get back to the committee. And so 
if you have any further questions, we can certainly do it that 
way.
    Ms. Holmes Norton.
    Ms. Norton. Thank you, Madam Chairwoman.
    Mr. Hadden, in a fairly elliptical sentence in your 
testimony, you say, therefore--page 4--EEOC believes it will be 
critical for agencies to pay special attention to potential 
barriers to entry into those successor pools of GS-15s and 14s. 
With a focus on those positions that typically lead to senior 
management--senior level management--see, I'm interested--not 
so much interested in the 14s and 15s. First of all, those are 
verified positions in the Federal Government, too. Those people 
have been leaving the Federal Government--the minorities and 
Whites, according to the GAO report, have been leaving the 
Federal Government and GS-15s at about the same rate. And you 
know why? Because these are people that are very much sought 
after. You know, they don't need the Federal Government. This 
isn't your grandfather's economy, and the private sector knows 
how to give health care, the kind the Federal Government 
doesn't give, sometimes picking up the whole thing. And we 
haven't come close to that. They know how to make bonuses 
really get more work out of managers, and people who attain 14 
and 15 are very ripe to be picked off.
    So we've been concentrating on those levels. Well, you can 
concentrate all you want on those levels, but by the time 
somebody finally makes his way to 14 or 15 he may be applying 
all over the map. Who needs you anymore?
    So I really am just as interested in what we are doing to 
make the feeder pool fatter and to make people want to stay in 
the Federal Government to have enough sense that there is 
promotion to get to the place where you can be looked at for 
SES. I read the sentence from Mr. Hadden about how you get into 
the feeder pools and what you're doing to make sure, 
particularly given retirements, given competition, the sexy 
place to be, gentlemen, is not the Federal Government these 
days. The sexy place to be is in the private sector. So I want 
to know what you're going to do to retain people long enough to 
get them and what you're going to do to make sure the people 
get into the feeder pool so that they can be looked at by the 
SES in the first place. That I didn't find in the testimony.
    Don't you all speak at once, please.
    Mr. Sanders. If that is a general question, I'll take it 
on. Starting with the very beginning of the pipeline, we're 
really doing a tremendous job bringing in bright young folks to 
the Federal service, the Presidential management intern 
program, outstanding scholars, the Federal career intern 
program. The recruit rates are high, and the diversity 
statistics are pretty impressive. For example, in the class of 
2003 for Presidential management interns, 21 percent were 
minority and almost 60 percent were women.
    Ms. Norton. What grades were those interns?
    Mr. Sanders. They start at GS-9. So at the beginning of the 
pipeline, we're doing quite well. We need more work in the 
middle of the pipeline. A number of agencies are doing very 
innovative things. IRS, my old place, HHS with its emerging 
leaders program, the Department of Labor has really had 
remarkable success bringing in MBAs straight into mid-level 
positions. OPM is about to develop and deploy an executive 
readiness program which is sort of one level down focusing on 
high potential 13s and 14s to prepare them for the SES 
candidate development program and the next step after that the 
SES. Those programs are under way. They're under development. 
And that is probably the weakest part of the leadership 
development pipeline.
    But in terms of keeping good folks, you know this because 
Director James has testified on this before and so has Dan 
Blair, our Deputy Director. We need to make the general 
schedule far more performance based so that when we have 
somebody who is on the fast track we can reward them, we can 
promote them, we can compensate them and keep them so they can 
get to the SES and not have to wait around for 20 or 25 years.
    Ms. Norton. You have to watch out how you do that too, 
because they can believe there is favoritism.
    Finally, let me ask you a question about accountability, 
Mr. Sanders. It says at page 10 of this testimony that we can 
hold agencies accountable for their efforts in this regard. You 
are doing a lot of good work in trying to do the groundwork. 
The accountability has always been a major problem here.
    And you go on in this testimony to talk about human 
capital, benchmarks of red, yellow and green, and apparently 
that is how the agency is marked, including the diversity of 
the work force and diversity in leadership decisions.
    Then you continue to get to the individuals who will be 
held accountable. And you speak about a chief human capital 
officer and her stewardship for ensuring diversity and 
leadership continuity in the agency. What you indicate is that 
at least you have a single point of accountability.
    I want to know how that person is going to be held 
accountable. If this were the private sector, for example, that 
person might be held accountable through their compensation. 
Diversity would be a specific element of their compensation. It 
might even be broken down as to high level diversity and 
diversity in the ranks, how the employee was evaluated. 
Diversity would be an important part of the evaluation of the 
manager or the leader. I want to know any such accountability 
notions that are a part of your system of accountability.
    Mr. Sanders. Particularly at the level of the chief human 
capital officer, for the most part these are senior political 
appointees in agencies. So accountability is directly to their 
Cabinet secretary, department head, to the President and, in 
part, to you all.
    I think hearings like this are part of the Federal 
Government's accountability mechanism. So while, for example, 
we can't reward or penalize them in terms of compensation, what 
we can do is put a spotlight on those that do good things, that 
make progress, and those that don't.
    Our focus will be on making sure that they have----
    Ms. Norton. Are these people evaluated?
    Mr. Sanders. In terms of formal performance evaluations?
    Ms. Norton. In any way.
    Mr. Sanders. I think they have their own performance 
evaluations individually, and agencies are certainly evaluated 
as well.
    Ms. Norton. Well, are these people--are these people 
evaluated in any way? And if so, can they be evaluated for 
their achievement in diversity in the terms in which we are now 
discussing?
    Mr. Sanders. I think that evaluation occurs as they are 
held accountable by their agency head and by the President.
    Ms. Norton. Well, I just--for the record, you have not said 
to me that anybody will be evaluated or otherwise held 
personally accountable for the achievement of diversity 
benchmarks. That is what I am looking for.
    Mr. Stroman. Ms. Norton, if I can just comment on that, I 
can tell you that at the General Accounting Office, the 
Comptroller General awards bonuses to his senior managers as a 
result of performance at the end of each fiscal year. And one 
of the important elements with regard to those bonuses is 
diversity; that is, we track what the promotion opportunities 
have been during the course of a year, what the senior level 
looks like in a particular team, and the Comptroller General 
makes a decision. And diversity is an important component.
    So I agree with you that money at some point can be made 
available and can be used as an important stick to move 
diversity forward.
    Ms. Norton. Madam Chairwoman, I thank you for your 
indulgence. I do want to just say for the record that unless--
it is a part of human nature, and it is a part of the way in 
which government and every enterprise has run since the 
beginning of time. If an agency holds somebody accountable for 
how that agency processes Civil Service, sorry, Social 
Security, then you say that is important to this agency.
    And unless the agencies are going to be held accountable 
for whether they achieve and how much, how far they go in 
achieving--and I mean meeting goals. There is a sky--we got 
some this year. You will never satisfy at least some members of 
this committee unless there are goals set and unless you know 
whether those goals have been met.
    As far as this member is concerned, there is no 
accountability system. Thank you, Madam Chairwoman.
    Mrs. Davis of Virginia. Thank you, Ms. Holmes-Norton.
    I would like to clear up something in my own mind. I don't 
remember which one of you said it. Are you saying that the 
chief human capital operating officer, are they all political 
appointees? If so, who do they report to?
    Mr. Sanders. No, not all of them. That was a matter for 
each agency head to decide. But I do believe the majority of 
them are senior political appointees reporting; in many cases 
they are assistant secretaries, so they are reporting to their 
Cabinet secretary.
    Mrs. Davis of Virginia. So they come and go with the 
Cabinet secretaries when them come and go with the 
administration?
    Mr. Sanders. Yes, ma'am. The legislation doesn't specify 
whether the chief human capital officer is a political 
appointee or a career. And, frankly, that is a delicate balance 
because you do want somebody who is going to have the voice and 
the weight of the department head speaking on human capital 
matters. They, of course, have a career staff, including senior 
HR folks in the SES who report to them, who provide the 
continuity.
    Mrs. Davis of Virginia. Ms. Holmes-Norton, I understand 
what you are saying, but I also wonder how you can use 
diversity as something to go by when you are counting bonuses 
and salaries and the like, if the pool--and I am hearing that 
the pool may not be there. If the pool isn't there, how can you 
hold the person accountable for not hiring the people if they 
don't have the pool to hire from?
    Which brings me to my question, I guess of, are there 
barriers out there, and what barriers are out there to 
achieving what we are looking for here, diversity in the SES 
corps?
    And, quite frankly, just to give you where I stand, it 
would suit me fine if everybody could be hired based on whoever 
is hiring them never seeing their names so they can't guess 
whether they are male or female, and never seeing their face so 
they couldn't see what color, or their height or weight or 
anything.
    I don't know the magic answer to that question. But if you 
can----
    Mr. Stalcup. Well, in part, in answer to that question, and 
going back to Ms. Norton's question, we are doing a study now 
looking at agencies across government in terms of how 
specifically they are holding their executives accountable for 
elements such as diversity.
    We are very early in the stages of that; it is a request 
from the Senate side, and that report will be coming out next 
year. So it is a key issue, one that we are in agreement with 
in terms of importance and one that will help us sort this out.
    Mrs. Davis of Virginia. Let me just say this. If you start 
doing that, and you make your senior executives--if you hold 
them liable for not having a diverse--for not hiring 
minorities, could we be getting to the point where they hire 
minorities just because they are minorities rather than hiring 
the best person for the job?
    Mr. Stalcup. Well, I would hope not. Obviously, our study 
also showed--the report that we talked about today--that, 
really, numbers is not necessarily a problem. Our study shows, 
at least at the GS-15 and 14 levels, that there will be 
sufficient numbers, both minority and White people.
    Mrs. Davis of Virginia. In the pool?
    Mr. Stalcup. In the pool, yes, down the road. So that is 
not necessarily an issue.
    Mrs. Davis of Virginia. OK.
    Mr. Sanders. Madam Chairwoman, in terms of appointing 
people to the Senior Executive Service, frankly that is one of 
the most expeditious ways of bringing folks into government. 
Not every agency practices it, but as Director James has 
demonstrated, and others, you can literally bring SESs on board 
in 30 days if you put your mind to it.
    You can reach out to a broad candidate pool, not just 
Federal Government or former Federal employees, but the private 
sector. There is wonderful talent out there. There is wonderful 
talent inside as well. You can do this very quickly. You can 
move fast. It just takes will.
    And it goes back to the issue of accountability and having 
somebody now that you all can talk to and point to, as well as 
the President saying, what are we doing?
    Mrs. Davis of Virginia. Well, I am impressed that OPM has 
raised their numbers. I am glad to hear that the report was 
based on what you used to do, so if you changed what you are 
doing, we can get a little higher.
    We will have some other questions we will submit to you for 
the record, if you can answer them and get them back to us. And 
that is open to my colleagues as well. I thank you all of you 
for being patient, and for being with us here today.
    I would now like to invite our second panel of witnesses to 
please come forward to the witness table. On this panel we will 
be hearing from some of the agencies themselves.
    First is Gail Lovelace, Chief Human Capital Officer for the 
General Services Administration. Next we will have Jo-Anne 
Barnard, the Chief Financial Officer for the U.S. Patent and 
Trademark Office. Third will be Dr. Reginald Wells, the Deputy 
Commissioner for Human Resources at the Social Security 
Administration.
    And we have already sworn you all in. So if you will take 
your seat, we will begin with the statements.
    We will now recognize you. We will ask you to summarize 
your testimony in 5 minutes. Any more complete statements you 
may wish to make will be included in the record.
    I would like to welcome you, Ms. Lovelace, and thank you 
for being with us today. We will begin with you. You are 
recognized for 5 minutes.

 STATEMENTS OF GAIL T. LOVELACE, CHIEF HUMAN CAPITAL OFFICER, 
    GENERAL SERVICES ADMINISTRATION; JO-ANNE BARNARD, CHIEF 
 FINANCIAL OFFICER, U.S. PATENT AND TRADEMARK OFFICE; AND DR. 
  REGINALD F. WELLS, DEPUTY COMMISSIONER FOR HUMAN RESOURCES, 
                 SOCIAL SECURITY ADMINISTRATION

    Ms. Lovelace. Thank you. Good afternoon, Madam Chairwoman, 
members of the subcommittee. I appreciate the opportunity to 
appear before you today on behalf of Steven Perry, the 
Administrator of GSA. I am Gail Lovelace, GSA's Chief People 
Officer, and I am also the Chief Human Capital Officer for GSA.
    Today, I will briefly address three issues: the current 
level of diversity in GSA's SES work force; recruitment and 
development of minorities and women in preparation for SES 
positions; and a quick update on the implementation of the No 
Fear Act inside GSA.
    We believe that GAO is absolutely correct when they write 
that diversity can be an organizational strength that 
contributes to achieving results. In addition, diversity at the 
highest levels of an organization sets a positive and visible 
example for the rest of the organization to follow and to 
emulate.
    The desire to encourage and increase racial, ethnic, gender 
and other types of diversity in the Federal work force, 
including diversity at the senior executive levels, is explicit 
in guidance that covers much of my daily work. The President's 
management agenda includes an initiative for the strategic 
management of human capital, and this initiative establishes a 
goal of ``a diverse work force, including mission-critical 
occupations and leadership.''
    GSA's Human Capital Strategic Plan, first published in 
August of last year, outlines seven human capital goals. Two of 
the seven goals are focused on executive leadership and 
diversity. As stated in our plan, one of the goals is ``to 
ensure that we have a diverse work force.'' Our plan is to 
continually assess our work force and take steps to ensure that 
there is appropriate representation by minorities, women and 
other identified groups in the GSA work force as a whole, and 
at various grade levels, certainly including the Senior 
Executive Service.
    In GSA, we believe that our overall work force is diverse. 
Currently, minorities comprise 37.8 percent of the work force; 
women represent 45 percent of our overall work force. At the 
executive level, GAO's report showed that as of October 1, 
2000, 13.8 percent of our Federal career executives were 
minorities and 23.6 percent were women.
    At that time, GSA's numbers were slightly better than the 
average; 14.3 percent were minorities, and 28.6 percent were 
women. On September 30, 2003, 3 years later, GSA's numbers have 
regrettably declined for minorities, at 10 percent, but 
improved for women at 28.8 percent.
    For us, there is certainly room for improvement. With 80 
career executives in GSA, we represent a very small portion of 
the governmentwide total. Even within that small number, we 
continue to see movement within our executive ranks. Just since 
March of this year, we have lost three women and four minority 
executives, either through transfers to the Department of 
Homeland Security, retirement or through movement to another 
position outside of GSA.
    Today, we are recruiting for several career executive 
positions. We are well aware of the opportunities that this 
presents and will make every effort to ensure that we are 
attracting a diverse group of candidates to GSA.
    As career senior executives leave the GSA work force, their 
vacant positions are filled from within GSA, or from other 
sources outside the agency. We are focusing our efforts on 
attracting a pool of diverse candidates from both directions.
    GSA, like many other agencies, uses a variety of sources to 
attract applicants. Our new recruiting branding strategy, ``You 
can do that here,'' is being utilized in a variety of settings 
to attract applicants to GSA.
    In addition to our recruitment efforts, GSA is also focused 
on development of internal staff to get them ready to move into 
executive positions. We recently established a new five-tier 
Leadership Institute that offers leadership development 
programs for managers, supervisors, senior specialists and 
analysts.
    In fiscal year 2002, with the support of OPM, GSA 
established our Advanced Leadership Development Program as one 
tier of our Leadership Institute. The Advanced Leadership 
Development Program is designed to develop future leaders and 
plan for executive succession in the coming years.
    The impetus for this endeavor is the potential for a 
pending leader exodus from GSA. As in many other government 
agencies, over half of GSA's executives, supervisors and 
managers will be eligible to retire in the next 5 years. It was 
deemed prudent to begin an accelerated leadership development 
program to prepare for the future.
    That program is comprised of three competitive phases, an 
application process, an assessment process and executive 
interviews. Once the applicant has successfully passed these 
phases, they enter into a coaching relationship and begin 
various programs required for their development. We are pleased 
that in our 2003 program, 25 percent of our participants are 
minority, 48 percent are women.
    In our external recruitment efforts, we are maximizing the 
use of Web-based technology and other supplemental methods of 
communication to reach out to new or previously untapped 
sources of highly qualified candidates. Most of our executive 
vacancy announcements, we have advertised for both Federal 
employees and outside applicants. We believe that this 
increases our opportunity to attract a more diverse applicant 
pool.
    We are also considering use of OPM's proposed new Federal 
SES Candidate Development program as another opportunity to 
increase our diverse pool of candidates.
    Before I close, I would like to turn to the No Fear Act. As 
required by the Notification and Federal Employee 
Antidiscrimination and Retaliation Act of 2002, GSA is 
implementing increased accountability for violations of 
antidiscrimination and whistleblower protection laws. We are 
moving forward with plans to effectively implement the No Fear 
Act, based upon the interim regulations that were issued by the 
Equal Employment Opportunity Commission, and anticipated 
guidance from OPM.
    Just last week our Associate Administrator for Civil Rights 
led a leadership group at GSA in a discussion about the law, 
and will continue to share updated information with them as we 
implement the plans that we expect to get as a result of 
requirements of the new regulations.
    We are developing an e-learning module for our OnLine 
University, and we are using our Web site to educate our 
associates about the act. In addition, our Office of Civil 
Rights has installed a new data base that will capture and 
report the data required by the act.
    In their model, GAO examined career senior executive 
service trends between 1995 and 2000. They projected that, 
based upon those trends, the proportion of minority men and 
women in the SES will remain virtually unchanged. We will be 
successful in meeting the challenge of creating a more diverse 
work force if at a future date GAO's projection has proven to 
be incorrect. That will require a concerted level of effort at 
all agencies.
    GSA is committed to taking steps needed to improve our 
diversity across GSA, including our executive ranks. Thank you 
for the opportunity to testify before you today, and I look 
forward to any questions.
    [The prepared statement of Ms. Lovelace follows:]

    [GRAPHIC] [TIFF OMITTED] T2901.081
    
    [GRAPHIC] [TIFF OMITTED] T2901.082
    
    [GRAPHIC] [TIFF OMITTED] T2901.083
    
    [GRAPHIC] [TIFF OMITTED] T2901.084
    
    [GRAPHIC] [TIFF OMITTED] T2901.085
    
    [GRAPHIC] [TIFF OMITTED] T2901.086
    
    [GRAPHIC] [TIFF OMITTED] T2901.087
    
    Mrs. Davis of Virginia. Thank you, Ms. Lovelace.
    Now I would like to recognize Ms. Barnard. I would like to 
thank you for being with us today; you are recognized for 5 
minutes.
    Ms. Barnard. Madam Chairwoman, Ranking Member Davis and 
members of the subcommittee, I appreciate the opportunity to 
testify today for the USPTO. Americans can be proud that when 
they apply for a patent or a trademark, they are relying upon 
one of the more diverse agencies in the Federal Government.
    This wide diversity is well represented within the agency's 
SES ranks. Since 1999, the USPTO has seen substantial increases 
in the number of African Americans, Asian Americans and women 
on our SES staff. Currently 14 of our 46 SES members are women, 
including one Asian American and three African American women.
    This represents a 133 percent increase over 1999 when we 
had six female SES members on our rolls. During the same 4-year 
period, we have increased the number of African Americans in 
our SES ranks by 100 percent, from two to four individuals, and 
the number of Asian American SESers by 200 percent, from one to 
three individuals.
    The USPTO's SES diversity profile compares favorably with 
that of the Federal Government as a whole. The most recent 
governmentwide SES demographics issued by the Office of 
Personnel Management in 2001 indicate that governmentwide, 25 
percent of SES members are women and nearly 14 percent are 
minorities.
    At the USPTO, 30 percent of SES members are women, and over 
15 percent of all appointments are held by minorities. As we 
replace retiring members of our existing SES corps over the 
next few years, we expect this diversity to further increase, 
because of the significant diversity in the pool of existing 
employees that we have.
    The USPTO currently has 46 members of the SES; 19 of these 
individuals, 41 percent, are now retirement-eligible, or will 
become eligible over the next 2 years. Although a few of our 
existing SES positions, like my own, are in the financial and 
administrative area or the information technology field, the 
vast majority of our SES jobs are highly specialized in nature.
    In addition to the managerial skills normally required for 
SES positions, incumbents and applicants for these jobs possess 
extensive intellectual property knowledge in either patent or 
trademark law. SES members in the patent business area manage a 
work force comprised largely of scientists and engineers. And 
those in the trademark area direct a staff of intellectual 
property attorneys.
    Executives in both of these areas must possess both the 
technical knowledge required to direct the work force, and a 
high degree of specialized knowledge about intricate, often 
complex examination rules, regulations and procedures. Much of 
this specialized knowledge can only be acquired through years 
of experience in the office. As a result, virtually all of our 
patent and trademark SES positions are filled from within the 
USPTO.
    Diversity is likely to increase in our SES ranks because of 
the underlying diversity of the pool of patent and trademark 
professionals from which many of our future SES executives are 
likely to be drawn. Our current work force presents a 
recruitment pool of 370 patent professionals at the GS-15 
level, most of whom occupy supervisory and managerial 
positions. Of this total, 83 are women, 31 are African 
American, 84 are Asian American, 9 are Hispanic and 2 are 
Native Americans. We also have 72 attorneys at the GS-15 level, 
including 39 women, 4 African Americans, 3 Asian Americans, and 
2 Hispanics.
    In order to enhance the qualifications of this SES pool, 
many of these patent and trademark professionals have taken 
advantage of the managerial, supervisory, leadership and 
executive management training and development assignments that 
we offer and fund. We have put in place and constantly seek to 
improve upon developmental opportunities that have included 
managerial training provided by the Office of Personnel 
Management's Federal Executive Institute and other facilities, 
a management certificate program that was designed specifically 
for the USPTO by Syracuse University's Maxwell School, in-house 
technical and managerial training and opportunities for 
numerous career development details throughout the agency.
    The USPTO also currently has an SES candidate training 
program under development. Our priority is always to select the 
best qualified person, regardless of race, national origin, sex 
or religion, for each SES position that we fill. Because we 
have so many talented men and women and minorities in our 
senior supervisory and managerial ranks, we are confident that 
many of them will rise to the SES level.
    In addition, we will continue to conduct the broadest 
possible searches for our financial, administrative and 
information technology SES vacancies.
    As for the No Fear Act, the USPTO is actively implementing 
the reporting and notification requirements pursuant to the act 
and the upcoming regulations. We have purchased software that 
will aid in meeting the reporting requirements and migration of 
current complaint data into a Web-based format is now under 
way.
    To meet the notification requirements, we have arranged to 
place a notification on each employee's printed pay stub, and 
on the USPTO Internet Web site. The notice will explain the 
rights and protections guaranteed by Federal antidiscrimination 
and whistleblower protection laws. We also have incorporated No 
Fear Act information into the training module that is given to 
all new managers and supervisors at the agency.
    The Office of Personnel Management is currently drafting 
regulations on the implementation of the reimbursement 
requirements of the act.
    We are prepared to take any steps necessary to implement 
these requirements as soon as the regulations are issued. I 
appreciate the opportunity to share this information and to 
testify today.
    Mrs. Davis of Virginia. Thank you, Ms. Barnard.
    [The prepared statement of Ms. Barnard follows:]

    [GRAPHIC] [TIFF OMITTED] T2901.027
    
    [GRAPHIC] [TIFF OMITTED] T2901.028
    
    [GRAPHIC] [TIFF OMITTED] T2901.029
    
    Mrs. Davis of Virginia. And Dr. Wells, we appreciate you 
being here today, and you are recognized for 5 minutes.
    Mr. Wells. Thank you, Madam Chairwoman, and Mr. Davis for 
asking me to be here today to discuss the Social Security 
Administration's efforts to achieve diversity in its Senior 
Executive Service.
    I am pleased to have the opportunity to tell you about the 
efforts that SSA has made to develop and recruit a diverse work 
force as we also address the challenges presented by the 
forthcoming retirement wave among career civil servants.
    The Social Security Administration is an agency of 65,000 
employees working in 1,500 installations nationwide. As 
Commissioner Jo Anne B. Barnhart has often said, the men and 
women of Social Security are ``the agency,'' and I share her 
view that the Social Security work force is the best in 
government.
    Our goal is to provide the American people with the service 
they expect and deserve. To succeed we must understand and meet 
the needs of a diverse public. That means we need a high-
performing, well-trained and well-equipped staff, from our 
front line right up to our highest executives.
    Seventy-one percent of our employees are women, and 44 
percent are members of minority groups. Diversity is reflected 
in all of the major components, at all levels, including among 
our deputy commissioners, regional commissioners and associate 
commissioners. We are also a very experienced group, with an 
average of 20 years of service, and an average age of 47. That 
is both a challenge and an opportunity for SSA, as the agency 
faces the massive increase in workloads that the aging of the 
baby boomers is already starting to create. Sixty percent of 
SES and GS-14s/15s will be eligible for regular retirement by 
2008, and we will need to replace 24,000 of 65,000 employees 
over the next 10 years. But SSA views this turnover as an 
opportunity to increase diversity as we recruit and hire the 
work force that will take the agency into the future.
    Over the past 4 years, we have hired approximately 12,000 
permanent employees. We have focused on ensuring equal 
opportunities for all, including minorities and women. Today, 
44 percent of our employees are members of minority groups, 
compared to 28.5 percent in the civilian labor force and 30.8 
percent in the Federal work force. We employ an increasing 
number of Hispanics, who now comprise 11.9 percent of SSA's 
work force, compared to 12.2 percent of the civilian labor 
force and 7.1 percent in the Federal work force. SSA ranks 
third among Federal agencies in this area.
    Further, SSA is second among major Federal agencies in 
hiring Hispanic employees. The Office of Personnel Management's 
June 2003 report to the President highlighted SSA as one of the 
model agencies for Hispanic hiring.
    In October 2002, our SES corps of 123 individuals included 
41 minority men and women, representing one-third of the total. 
Ninety-four percent of the most recently completed SES 
candidate development program class, remaining with the agency, 
has been selected for placement in SES positions at SSA.
    Of the 30 SES appointees from this class, one-third were 
women and 40 percent were minority. However, Commissioner 
Barnhart and the entire agency leadership is firmly committed 
to continuing our efforts to build a work force that truly 
reflects the Nation as a whole.
    SSA's long tradition of developing leadership from within 
means that a diverse SES corps depends in large part on a 
diverse total work force. SSA recruits at historically Black 
colleges and universities and Hispanic-serving institutions, 
and has cooperative agreements with Native American tribal 
colleges and universities.
    SSA also uses the Outstanding Scholar Program to recruit 
minorities, as well as the authority granted by OPM to use 
bilingual registries in hiring. We are also establishing 
partnerships with national organizations, such as the National 
Association of Colleges and Employers, the Association on 
Higher Education and Disability, and the Hispanic Association 
of Colleges and Universities.
    SSA has three national development programs for employees 
from grades GS-9 through GS-15 that will enable the agency to 
meet the staffing and leadership challenges of the 21st 
century. These programs are considered to be among the best in 
government. In addition to our national programs, we offer 
numerous regional and component level programs.
    I would like to turn for a moment to the Notification and 
Federal Employee Antidiscrimination and Retaliation Act of 
2002, also known as the No Fear Act. SSA strongly supports the 
implementation of the No Fear Act.
    Prior to October 1, 2003, the effective date, SSA took 
affirmative steps to comply with the notification provisions of 
the new act, and I am pleased to report that SSA has 
successfully completed all of the five required steps to inform 
employees of their legal protections and rights.
    In closing, I would like to emphasize SSA's pride in its 
work force and its efforts to promote diversity among its 
employees.
    Thank you, and I will be glad to answer any questions you 
may have.
    Mrs. Davis of Virginia. Thank you, Dr. Wells.
    [The prepared statement of Mr. Wells follows:]

    [GRAPHIC] [TIFF OMITTED] T2901.030
    
    [GRAPHIC] [TIFF OMITTED] T2901.031
    
    [GRAPHIC] [TIFF OMITTED] T2901.032
    
    [GRAPHIC] [TIFF OMITTED] T2901.033
    
    [GRAPHIC] [TIFF OMITTED] T2901.034
    
    [GRAPHIC] [TIFF OMITTED] T2901.035
    
    Mrs. Davis of Virginia. I would like to thank all three of 
our witnesses for being patient and being here with us today.
    Before I go to Mr. Davis, I have a question of Ms. Barnard. 
In inviting the Patent and Trademark Office to attend today's 
hearing, we were expecting them to send someone very 
knowledgeable about the agency's personnel and human resources 
functions relating to the Senior Executive Service.
    As the CFO, would you explain your role in the management, 
selection and oversight of the Senior Executive Service at the 
Patent and Trademark Office?
    Ms. Barnard. Yes. I am the Chief Financial Officer and the 
Chief Administrative Officer. So I also have under me the 
Office of Human Resources, and I am responsible for 
recruitment, for directing the committee that selects senior 
executives, the Performance Review Board, and the Executive 
Review Board.
    So I am directly involved in the agency's hiring and 
training programs.
    Mrs. Davis of Virginia. For the SES?
    Ms. Barnard. Yes.
    Mrs. Davis of Virginia. Thank you.
    Mr. Davis.
    Mr. Davis of Illinois. Well, thank you very much, Madam 
Chairwoman.
    Ms. Lovelace, I was intrigued with your testimony, 
especially the point where there has been some decrease. Could 
you explain how that may have happened, or how that could 
happen?
    Ms. Lovelace. The decrease in the number of minorities and 
women that are in our executive ranks comes from the fact that 
we have had turnover within the agency. There are people that 
have moved to other agencies, have retired, or have transferred 
into other positions outside of the government.
    We see a decrease in the number of SESers, and an increase 
in the number of minorities and women that actually leave the 
agency. We in fact will see that the numbers overall in terms 
of our percentages will decrease as well.
    There are some opportunities inside GSA right now. We are 
currently trying to recruit to fill career executive positions, 
to fill behind some of those losses. And so I think that is a 
unique opportunity for us.
    Mr. Davis of Illinois. I certainly agree with your comment, 
in terms of indicating that there was opportunity, because as I 
looked at the numbers and--you know, I saw that in terms of SES 
hires in 2002, there was one Black female, no Black males. And 
in 2003, there was one Black male and no Black females.
    Do you have your own candidate training program?
    Ms. Lovelace. It is not actually a candidate development 
program. It is a program to develop people to take on new 
leadership roles within GSA. So it is not a formal candidate 
development program.
    Mr. Davis of Illinois. You did indicate, though, that you 
were talking with OPM about possible use of their program?
    Ms. Lovelace. Yes. As a matter of fact, we are discussing 
this program at my Executive Resources Board at GSA. This 
meeting has actually been planned for some time, we will 
discuss our use of that program, and discuss the numbers that 
you see in front of you in terms of the hiring or lack thereof 
of minorities and women inside our executive ranks at GSA.
    We realize that there are issues inside GSA, which is why 
we have included a very specific goal in our human capital 
strategic plan to try to address that issue within GSA.
    Mr. Davis of Illinois. Thank you very much.
    Ms. Barnard, I was certainly struck, as I looked at your 
testimony and as I heard you, in terms of the percentages. I 
mean, you look at the percentages in your agency and you say, 
Wow. You know, you just--then, of course, you look at the 
numbers. And you say, Well, the wow is a little more 
understandable; that is, if you are going from one to three, or 
you are going from two to four. But, even so, that represents 
significant movement.
    And I don't mean to downplay that in any kind of way, but 
my question is, prior to those years, did the agency have a 
formal program that was designed to help move people up and in?
    Ms. Barnard. No, we have never had a formal SES development 
program, per se. The Department of Commerce has a program in 
which we have participated. As part of our human capital 
program right now, we are developing, under the aegis of the 
President's management agenda, a training program along the 
lines of the one Ms. Lovelace talked about, where we will be 
offering training to various levels of managers.
    As I spoke earlier, we really see our opportunities for 
improving the diversity of our work force in that underlying 
pool of managers, and because we are so diverse at that level, 
we think we will be able to make better inroads than in the 
past.
    For instance, if you look at the 23 selections that we have 
made in the past 4 years in the Senior Executive Service, 22 
percent of those have been minorities. So we are having the 
minorities developed through our ranks of managers. And that is 
where we are placing our emphasis.
    Mr. Davis of Illinois. Let me just ask both of you quickly. 
Would it be just as simple and just as easy, perhaps, to use 
the program that OPM has developed? Is there a reason perhaps 
to have some other activity?
    Ms. Lovelace. The OPM program is not fully developed yet 
and has not been made available to agencies. Our Leadership 
Institute has actually been in existence for about 3 years; I 
believe we are going into our 4th year. We needed to step up 
our level of effort before OPM even began development of this 
program.
    But we will look to see how we can enhance our ability to 
recruit minorities and women by use of that program, and see 
how it aligns with what we are already doing inside GSA.
    Mr. Davis of Illinois. OK.
    Dr. Wells, quickly, I don't want to take issue with the 
comment that you made about the Social Security Administration 
having the best work force in the Federal Government, and I 
really don't know about that. But I do know about that bunch 
that work out of Region 5 in Chicago, and they are about as 
good as they come. So you don't get much better than they are.
    Mr. Wells. Thank you, Mr. Davis.
    Mr. Davis of Illinois. I have had a wonderful experience 
working with them. And they have had some of most committed and 
dedicated people that I have ever run into. I mean, they are 
out all times of the night, all over the place with us, as we 
try and take information to the people.
    Let me ask you, how long have you been in Federal 
Government service?
    Mr. Wells. In the Federal service, well, if you count my 
time with District Government, which doesn't actually count 
technically, although it is the same retirement system, I have 
actually been in the Federal Government proper since 1994.
    Mr. Davis of Illinois. So you are a career person?
    Mr. Wells. I am, yes, sir.
    Mr. Davis of Illinois. Not a political----
    Mr. Wells. I am not a political, no.
    Mr. Davis of Illinois. I am wondering, if having people in 
certain positions coming from a career service vantage point 
might not make a difference?
    I suspect that throughout the Social Security 
Administration, there are people like you who have career 
service status and rank, and have moved up to certain levels 
and have responsibility. That responsibility carries with it 
certain continuity, and so there seems to be a level of 
professional commitment to doing the job.
    That is really what I am trying to get at and to suggest. 
Would you comment on that?
    Mr. Wells. Mr. Davis, I think--in my experience, I have 
been fortunate in that most of the Federal employees I have had 
the occasion to work with, both career and political, have been 
very dedicated to the work. I have had a very good experience 
with that.
    There is something to be said for continuity, and that is 
why we have the two sides. The career service is for purposes 
of keeping things going on an even keel. And clearly in the 
case of the Social Security Administration, which has very few 
political senior executive positions relative to some other 
agencies, we have really enjoyed a lot of continuity with the 
careerists that are there.
    I happen to be the designated chief human capital officer 
for the Social Security Administration. So I am one of the 
exceptions that Ron Sanders spoke of. I happen to wear that 
hat. I am also the Deputy Commissioner for Human Resources.
    Mr. Davis of Illinois. So I kind of gathered that. That was 
really the genesis of my question.
    And I think it does make a great deal of sense and provides 
opportunity for a level of professional thought, action and 
continuous commitment. If something doesn't happen, we can 
really come back to you 2 years from now and expect that you 
will still be there, or we can come back 3 years, 4 years 
maybe, and expect that you are still there.
    Mr. Wells. I certainly hope to be.
    Mr. Davis of Illinois. Rather than a political appointee, 
you might come back next year and they are gone. And whoever is 
there can then say, well, I really didn't have responsibility 
for what was going on year before last because I just got here.
    Mr. Wells. That is kind of in my genes. I happen to be a 
second generation Fed. My mother worked for the Internal 
Revenue Service for 45 years. So I don't know if I will go 
quite as long as she did, but I am intending to stay here for a 
career.
    Mr. Davis of Illinois. Well, maybe good fruit doesn't fall 
too far from the tree. Thank you very much.
    Madam Chairwoman, I have no further questions.
    Mrs. Davis of Virginia. Thank you, Mr. Davis.
    Dr. Wells, I will just say that if today is any indication 
of your loyalty and your commitment to your job--because as I 
understand it, you opted to be here rather than Austria; I am 
not sure that I would have that kind of dedication--I would 
imagine with that kind of commitment, you will probably be here 
in 3 or 4 years.
    Mr. Davis, I don't think you have to worry about that too 
much.
    Ms. Barnard, I was just rechecking your statement in the 
beginning. I think I heard you say that because of the type of 
work and all that you have in the PTO, generally promotions are 
from within, the feeder group is from within, you don't go 
outside to bring people up into the SES positions.
    Did I hear you correctly on that?
    Ms. Barnard. We go outside for administrative, for legal, 
information technology positions, just as all agencies do. And 
actually, that would be the extent that we would rely on OPM's 
training program. But the vast majority of our SES positions 
are specialized positions. They are patent group directors or 
patent managers or people that negotiate treaties worldwide in 
the patent and trademark area, or trademark managing attorneys.
    Those people we do tend to select come mostly from within 
because the nature of the rules and the rules of practice are 
things that are learned best through years of experience in the 
agency. It is extremely difficult to recruit people who are 
familiar with the government rules from the outside. In fact, 
we are constantly competing to retain our people because we 
have law firms and private industry that are trying to attract 
them away from us.
    Mrs. Davis of Virginia. Could you tell me, on the patent 
side, what percentage you have of minorities that would be in 
the feeder pool, GS-14, 15s?
    Ms. Barnard. Of the 370 that we have at the GS-15 level--
let's see, I have those numbers here--83 are women, so that is 
approximately 22 percent. About 10 percent, 9 to 10 percent, 
are African American; 22 percent are Asian American; less than 
1 percent are Hispanic and Native American.
    Mrs. Davis of Virginia. Now, can you tell me in the SES 
pool on the patent side your breakdown on minorities?
    Ms. Barnard. Pardon?
    Mrs. Davis of Virginia. On the patent side, your SESs, 
could you give me the breakdown of the minorities?
    Ms. Barnard. I don't have that information, but I would be 
glad to provide that to you.
    Mrs. Davis of Virginia. Can you get that back to us for the 
record?
    And less than 1 percent were Hispanic, I think you said.
    I want to thank all three of the witnesses for being here 
and for being patient today. And we will have other questions 
for the record that we will submit to you, if you can get back 
to us in writing, and any other questions that we ask that we 
didn't get the answers to.
    I really appreciate your being here. I will dismiss this 
panel and bring in the third panel.
    I would like to thank our third panel of witnesses for 
being very patient with us.
    Today on this panel we have representatives of various 
employee groups that are all very interested in today's topic. 
From the African American Federal Executive Association we have 
its president, William Brown. Second is Jasemine Chambers, 
Chair of the Asian American Government Executive Network. Third 
we have Manuel Oliverez, president of the National Association 
of Hispanic Federal Employees.
    Fourth, that will be Shirley Harrington-Watson, National 
Legislative Review Committee Chair from Blacks in Government. 
And fifth we will hear from Patricia Wolfe, the president of 
federally Employed Women. Last, the committee will hear from 
Linda Rix, Co-CEO of AVUE Technologies Corp.
    And I believe we have sworn you all in. You all were here 
when we did the swearing in. Correct. And I will ask that each 
of you--we have your prepared statements, so if you would like 
to summarize and try to keep to the 5 minutes, we would 
certainly appreciate it.
    This is a very large panel. And we would like to get 
through all of the statements and then have the members of the 
committee be able to ask questions.
    So I would like first to welcome Mr. Brown. And thank you 
again for your patience. And thank you for being with us today. 
You are recognized for 5 minutes.

  STATEMENTS OF WILLIAM A. BROWN, SR., P.E., HAIA, PRESIDENT, 
 AFRICAN AMERICAN FEDERAL EXECUTIVES ASSOCIATION; JASEMINE C. 
CHAMBERS, CHAIR, ASIAN AMERICAN GOVERNMENT EXECUTIVES NETWORK; 
  MANUEL OLIVEREZ, PRESIDENT AND CEO, NATIONAL ASSOCIATION OF 
HISPANIC FEDERAL EXECUTIVES; SHIRLEY HARRINGTON-WATSON, CHAIR, 
 NATIONAL LEGISLATIVE REVIEW COMMITTEE, BLACKS IN GOVERNMENT; 
  PATRICIA M. WOLFE, PRESIDENT, FEDERALLY EMPLOYED WOMEN; AND 
     LINDA E. BROOKS RIX, CO-CHIEF EXECUTIVE OFFICER, AVUE 
                       TECHNOLOGIES CORP.

    Mr. Brown. Madam Chairwoman, Congressman Davis and 
Congresswoman Norton, thank you for the opportunity to testify.
    In January of this year I retired from Federal service as 
the Deputy Director of Military Programs for the U.S. Army 
Corps of Engineers, after a 38\1/2\-year career. I was 
fortunate to achieve the rank of Senior Executive, level 5, but 
I assure you it was no easy feat. I encountered many obstacles 
despite my qualifications.
    I was and am a licensed professional engineer, one of the 
youngest persons to be inducted in the College of Fellows of 
the Engineering Association, an honorary member of the American 
Institute of Architects, and I have held a variety of GS-15 
positions with the U.S. Air Force.
    In January 1995, after applying for 23 SES vacancies, and 
making the short list and being interviewed 15 times, I became 
the first African American career civil servant sworn into the 
Senior Executive Service in the field of engineering in the 
entire Department of Defense. Additionally, I was the only 
African American promoted to SES in the entire Army that year.
    Now, that was just 8\1/2\ years ago. Can you imagine the 
number of highly qualified minorities who preceded me and who 
were denied the opportunity to serve our Nation at the highest 
levels? Just think of where our Nation might be now if 
selecting officials had taken advantage of the skills and 
experience of the hundreds of highly qualified African 
Americans who are willing to stand up for America and put duty, 
honor and country before all else.
    In February 2002, several African Americans, including 
myself, who attended Harvard University, formed the African 
American Federal Executive Association. Our goal is very 
simple; we promote the professional development and advancement 
of minority groups with particular emphasis on African 
Americans into the Senior Executive Service. With that, I would 
like to provide you a few specific comments.
    Most Federal agencies are not serious about diversity. The 
good old boy network continues to flourish. Agencies continue 
to change the rules of engagement, and minority groups are 
pitted against one another for the few vacancies that become 
publicly available each year.
    The General Accounting report on SES diversity indicates 
that with current trends, the number of White SES females will 
increase by 4 percent by year 2007, while the number of 
minority males and females will only increase by 0.7 percent.
    Our Nation can ill afford to wait at this snail's pace for 
the complexion of our government leaders to change. The latest 
census results indicate our Nation is more diverse than ever. 
How long must a citizenry wait before the leadership reflects 
the ethnicity of our population? Are we not striving for ethnic 
equality in Iraq and Afghanistan? Why then are we not striving 
for the same in America?
    To help the subcommittee achieve ethnic equality, I offer 
several recommendations.
    Recommendation No. 1: We recommend endorsement of the OPM-
CDP program. We provided comments during the development, and 
while not all of our comments were incorporated, those dealing 
with direction, vision, intent and implementation were. We 
commend the Honorable Kay Cole James for her leadership and 
willingness to consider alternatives to business as usual.
    CDP is, however, one option that needs to be included in a 
diversity tool box. Much more must be done if diversity is to 
be achieved in the near future.
    Our second recommendation is that you consider withdrawing 
all authority from an agency to hire Senior Service Executives 
until that agency achieves diversity in the SES ranks equal to 
ethnic representation in the United States as a whole.
    In the interim, OPM or a congressionally appointed board 
should be given authority to fill all career SES vacancies in 
that agency until SES parity is achieved.
    Our third recommendation is that you pass legislation 
prohibiting Federal agencies from changing the rules of 
engagement within 1 year of filling a vacancy. I have observed 
firsthand the selection of individuals without a college degree 
into the SES corps. None were minorities.
    I have also observed discussions on the academic 
qualifications of candidates when an African American is one of 
the top candidates. Invariably, the discussion always centers 
on the African American not having enough degrees or the right 
degrees. This changing of the rules when a minority is being 
considered must be eliminated. If a degree is required, require 
it of all candidates. If it is not required, require it of none 
of the candidates.
    I recently met with African Americans from a very visible 
agency, where an African American has not been promoted beyond 
the GS-14 level in the last 20 years.
    In this agency, one SES screens all candidates for senior 
positions and makes the vacancy selection. No other person is 
involved in the selection process. The process being used by 
agency ensures that no African American ever gets into the 
pipeline to compete for an SES position. Why is this kind of 
process being allowed to exist in our government?
    Madam Chairwoman, our fourth recommendation is that your 
subcommittee put an end to this kind of practice by enacting 
legislation requiring all agencies to use a panel of no less 
than three individuals to screen applicants for all GS-14 and 
above vacancies.
    Furthermore, we recommend that the legislation include a 
provision that when a minority is among the top three 
candidates, the agency be required to justify in writing to the 
agency head why the minority was not selected.
    We also recommend that the selection panel be required to 
include a voting minority at or above the level at which the 
position will be filled.
    To offset the argument that qualified minorities cannot be 
found to serve on the panels, we further recommend that your 
legislation include a provision for the agency to hire and 
reimburse retired minority Federal employees to sit on the 
selection panels.
    Finally, Madam Chairwoman, we are finding that complaints 
against an agency are not being adjudicated in a timely manner. 
I am sure that when agencies realize that under the No Fear Act 
they will be required to pay from their budget settlement fees, 
they will be quick to resolve complaints as well as take steps 
to ensure issues do not reoccur. For these reasons, we support 
the No Fear Act.
    Madam Chairwoman and members of the subcommittee, I thank 
you for the opportunity to share our thoughts with you. I have 
always believed that pride in public service occurs when you 
treat people with dignity and respect, and you allow them to be 
all that they can be. There have been times when this belief 
has been tested.
    In the final analysis, I was the one of the lucky ones. I 
served on diplomatic missions to Russia, Nigeria, Hungary, 
France, etc., and I was able to stand tall for America.
    But remember, I said I was lucky. What about those who are 
not so lucky? What about those who could have made America even 
stronger? What about your children, my children, the future 
generations to come?
    People are America's greatest asset. You have the 
opportunity to make America an inclusive rather than exclusive 
society by implementing the recommendations that I have 
outlined for you. Thank you.
    Mrs. Davis of Virginia. Thank you, Mr. Brown. And thank you 
for your service to our country.
    [The prepared statement of Mr. Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T2901.036
    
    [GRAPHIC] [TIFF OMITTED] T2901.037
    
    [GRAPHIC] [TIFF OMITTED] T2901.038
    
    [GRAPHIC] [TIFF OMITTED] T2901.039
    
    [GRAPHIC] [TIFF OMITTED] T2901.040
    
    Mrs. Davis of Virginia. Ms. Chambers, you are recognized 
for 5 minutes.
    Ms. Chambers. Good afternoon, Madam Chairwoman, Mr. Davis 
and Ms. Norton.
    According to the 2000 U.S. census, there are 12.8 million 
Asian Pacific Americans in the U.S. population. That amounts to 
4.4 percent. Today, about 87,000 APAs serve in the Federal 
executive branch, 56,000 on active duty in the military, and 
26,000 in the military Reserves, as well as 56,000 in the U.S. 
Postal Service. These 200,000-plus employees do not include 
those in the legislative and judicial branches or the national 
security agencies.
    Despite the participation and contributions, APAs have 
largely been absent from the top Federal leadership and 
executive positions. Although the number of APAs in the SES 
doubled from about 50 to over 100 in the last decade, only 1.7 
percent of the current SES members are Asian Pacific Americans, 
and that is well below its representation in the entire Federal 
work force or in the general population.
    According to the GAO report, based on the current 
separation and hiring trends, the number of APAs in the career 
SES will increase only modestly to 104 by the year 2007, but 
still remain at only 1.7 percent of the total SES.
    The Asian American Government Executives Network [AAGEN], 
shares this extremely alarming observation, and believes that 
the actual problems are more severe than reported because of 
several reasons.
    No. 1, there are 2,900 Asian Pacific Americans in the GS-15 
pipeline. However, more than half of the 2,900 APAs serve as 
nonsupervisory medical personnel under special pay plans in the 
Department of Veterans Affairs, and these positions are not 
structured to advance into the SES; and this number can be very 
misleading, if you just look at the plain number in the GS-15 
pipeline.
    Our second observation is, as the Federal Government's 
human resource agency, the Office of Personnel Management 
itself has not had one Asian Pacific American serving in either 
its career SES or at the GS-15 rank. From the year 1990 through 
September 30, 2003, the single Asian Pacific American SES was 
believed to be brought in on October 1, 2003, a couple of weeks 
ago.
    And third, to illustrate this pipeline problem, the only 
APA SES member in the 65,000-employee Social Security 
Administration is expected to retire soon. And in this 65,000 
employee agency, there are believed to be only eight Asian 
Pacific Americans in the GS-15 pipeline to fill this and other 
upcoming vacancies.
    And unfortunately, some of these APAs are themselves 
eligible to retire soon.
    And finally, as another example in the pipeline problem, 
out of a class of 50 candidates, only 3 minorities, 1 Asian 
Pacific American and 2 Hispanic Americans, and no African-
American, were recently accepted into the SES candidate 
development program conducted by the Department of Agriculture.
    The Asian American government executive network recognizes 
that sound decisions can be made only with good data and good 
analysis. We commend the subcommittee and the GAO for producing 
a very insightful report.
    However, we also note that there are significant data 
information gaps about the Federal work force. For example, 
OPM's demographic data has become less available to the public. 
The most recent demographic profile of the Federal work force 
on the OPM Web site dates back to September 30, 2000. That data 
more than 3 years old. Timely and reliable information is a 
form of public accountability.
    Beginning October 1, 2003, the No Fear Act became 
effective. The law now requires Federal agencies to disclose 
employment complaint statistics on the Internet. The Asian 
American government executives network believes that these same 
principles underlying the No Fear Act--and that is public 
disclosure and accountability--are equally applicable in work 
force diversity issues.
    In closing, the Asian American government executives 
network urges Congress and the administration to proceed to the 
next stage of reaching out to the APAs and removing the 
employment barriers that prevent APAs from reaching the full 
potential, offering true equal opportunities to enter the SES 
and other senior positions and also be included in the current 
transformation to a 21st century government.
    AAGEN concurs with the four GAO recommendations, and in 
addition, we propose the following, that the recommendations by 
the GAO be linked to specific agency strategic plans and 
actions, established performance goals, continuing to monitor 
results and consequences of good or poor performance. And No. 
2, the Congress continues to exercise oversight by directing 
the GAO to conduct annual audits and to hold hearings such as 
this to address the progress or the lack of it.
    No. 3, the OPM and U.S. Postal Service should be directed 
to restore the availability of timely reliable and accurate 
demographic work force data to the public, including both the 
employment and the applicant pool information.
    And finally, the subcommittee continues to include the 
Asian American government executives network and the Asian 
Pacific American perspectives in the current transformation of 
the SES. Madam Chairwoman, Mrs. Davis, Ms. Norton, thank you 
very much. This concludes my statement.
    Mrs. Davis of Virginia. Thank you, Ms. Chambers.
    [The prepared statement of Ms. Chambers follows:]

    [GRAPHIC] [TIFF OMITTED] T2901.041
    
    [GRAPHIC] [TIFF OMITTED] T2901.042
    
    [GRAPHIC] [TIFF OMITTED] T2901.043
    
    [GRAPHIC] [TIFF OMITTED] T2901.044
    
    [GRAPHIC] [TIFF OMITTED] T2901.045
    
    [GRAPHIC] [TIFF OMITTED] T2901.046
    
    [GRAPHIC] [TIFF OMITTED] T2901.047
    
    [GRAPHIC] [TIFF OMITTED] T2901.048
    
    [GRAPHIC] [TIFF OMITTED] T2901.049
    
    [GRAPHIC] [TIFF OMITTED] T2901.050
    
    Mrs. Davis of Virginia. Mr. Oliverez, certainly feel free 
to summarize your statement if you would. We have your full 
statement in the record. You're recognized for 5 minutes. Thank 
you.
    Mr. Oliverez. Madam Chairwoman----
    Mrs. Davis of Virginia. Could you turn your mic on, sir, or 
pull it a little closer. Yes.
    Mr. Oliverez. My name is Manuel Oliverez, and I am the 
president and CEO of the National Association of Hispanic 
Federal Executives [NAHFE]. It is an honor for me to represent 
for the subcommittee an organization of Hispanic professionals 
concerned about Hispanic representation in the Senior Executive 
Service. The Hispanic population represents the largest 
minority group in the United States, according to U.S. bureau 
statistics, and will continue to increase at a rapid rate 
within the next few years.
    At the present time Hispanics represent more than 13 
percent of the total population, and more than 12 percent of 
the civilian labor force is Hispanic. Hispanics, according to 
the June 2003 OPM report to the President on Hispanic 
employment in Federal agencies, represent 6.9 percent of the 
Federal work force. Incidentally, Hispanics are the only ethnic 
underrepresented group in all of the Federal agencies in the 
government.
    Hispanic representation at the Senior Executive Service 
level is only 3.3 percent, including professionals who receive 
senior pay but are not in the senior executive or management 
positions. Hispanic representation in the pipeline for senior 
executive positions is 4.5 percent, 3.8 percent, 3.3 percent 
for GS-13s, 14s and 15s respectively.
    NAHFE concurs with the GAO estimates concerning the 
upcoming losses of Federal employees in the Senior Executive 
Service at the GS-15 and 14 levels. NAHFE maintains that if 
current hiring promotion and retention practices continue, 
diversity at the senior level of the Federal Government will 
continue at the present unacceptable levels, and the level of 
Hispanic representation will continue to be a serious concern 
to those who design, develop and implement personnel practices 
in the Federal Government.
    The June 2003 OPM report to the President indicates that 
Federal agencies hired more than 13,000 Hispanics or 9.5 
percent of all employees hired in the Federal work force during 
fiscal year 2002. However, the total number of Hispanic 
employees increased by 6,151, or 4.7 percent. NAHFE commends 
the Director of OPM, Ms. Kay Cole James, and those members of 
the interagency task force on Hispanic employment for their 
efforts in this right direction.
    However, based on the numbers on Hispanic representation, 
NAHFE agrees with GAO that more consistent efforts and 
accountability measures are needed to improve diversity in the 
Federal work force, especially at the senior executive levels. 
Hispanics are affected not only by past and current 
discriminatory recruitment hiring, promotion and retention 
practices, but also by a lack of participation in succession 
planning, developmental assignments and opportunities for 
formal and informal training, coaching and mentoring. These 
barriers are evident by looking at the numbers of Hispanics 
selected for SES positions as well as Hispanic candidates 
selected for SES candidate development programs. And to add 
insult to injury, many of those that complete the SES training 
are not placed in senior positions.
    NAHFE appreciates the material that is developed in 
Spanish-containing information on employment opportunities in 
the Federal Government. However, these resources, as well as 
those invested in training candidates for the SES, will not 
produce the desired results until other issues are addressed. 
Hispanic youth deserves the opportunity to learn about public 
service early in their careers, and Hispanics entering the 
Federal work force deserve the opportunity to learn about the 
Senior Executive Service as early as possible. Career 
development is as important as a potential for leadership.
    The National Association of Hispanic Federal Executives 
would like to thank again the OPM Director for including NAHFE 
as a stakeholder in the discussion of issues and policies that 
will save diversity in the Federal Government in the future. 
NAHFE members are very concerned about the stagnant progress of 
Hispanic representation in the Federal work force. In spite of 
continued increase in the Hispanic population. Initiatives and 
policies will not produce desired results unless there is a 
consistent support and commitment for diversity from the White 
House, U.S. Congress, cabinet secretaries and agency heads. 
NAHFE recognizes and is excited about the President's 
management agenda, and specifically about the strategic 
management of human capital that provides guidance to Federal 
agencies in hiring and retaining policies consistent with 
agency mission and critical need.
    NAHFE supports a pay for performance initiative that will 
definitely encourage performance and will eventually clean the 
system of underperformers. And although there may be a need for 
checks and balances and tools for managers to justify the 
recommendations and decisions, NAHFE believes that ultimately 
these policies will encourage Federal employees to maintain and 
upgrade their level of skills and performance.
    In summary, NAHFE recommends that organizations of Federal 
employees and organizations advocating excellence in public 
service be given the opportunity to participate in the process. 
First of all, nonprofit organizations should have access to 
small business, education and training funding opportunities to 
assist Federal Departments in the identification, preparation, 
training and career development programs of candidates that 
will improve diversity in the Federal work force.
    NAHFE has identified several initiatives that, given the 
adequate attention in funding, will meet the objectives of the 
strategic management of human capital. Following those 
initiatives--NAHFE initiatives that can help Federal agencies 
achieve diversity in the Senior Executive Service level.
    The NAHFE annual conferences in development and training 
where GS-15s are taught how to prepare their SES packages, the 
Hispanic Federal executive summits, we've had six of those for 
SESers and GS-15s. Project Tivo, a program for GS-15s, a data 
base program. Project NARA, a 5, 7 and 9, 11 data program that 
we have on our Web site. The NAHFE mentoring program, the NAHFE 
networking initiatives, and the NAHFE Yahoo program where we 
have over 250 SESers and GS-15s. We provide daily information 
on the opportunities in the system.
    These initiatives will ensure the Hispanics possess the 
skills to compete for Federal employment at all levels. For 
those competing for entry level positions, NAHFE can offer 
training and resume preparation, interviewing skills and 
general knowledge of requirements for Federal employment.
    For those already in the Federal work force, NAHFE can 
coordinate seminars and other training opportunities to prepare 
Hispanics for the GS-13 to 15 positions. For those GS-14 and 
15, however, NAHFE can support OPM efforts to ensure Hispanic 
candidates nationwide are aware of the opportunities at the 
senior level and understand the preparation and application 
process that will allow them to submit competitive application 
packages.
    All outreach efforts, including the dissemination of 
materials in Spanish, will not produce the desired results 
until Hispanic candidates are interested in public service and 
understand the process and requirements and have access to 
training and mentoring opportunities to advance to the senior 
level. The increase in Hispanic population not only in 
traditionally Hispanic geographical areas demands a comparable 
diversity at all levels of the Federal Government, most 
critically at the Senior Executive Service level.
    NAHFE wants to thank all members of the Subcommittee on 
Civil Service and Agency Reorganization, and especially to 
Representative Jo Ann Davis, chairwoman of the subcommittee, 
for inviting NAHFE to the discussion of issues concerning 
diversity at the Senior Executive Service. NAHFE members, 
mostly in grades 13, 15 and SES, are excited about the 
opportunity to make a difference, and be part of the developing 
initiatives and policies that will increase Hispanic 
representation at the Senior Executive Service and management 
level.
    Thank you.
    Mrs. Davis of Virginia. Thank you, Mr. Oliverez. Ms. 
Harrington-Watson, and if you could, if you see the yellow 
light on, that tells you you have about 30 seconds to wrap it 
up. And I'll just repeat, we all have the full statements here. 
So if you could do a summary, that would be appreciated. Thank 
you, you're recognized for 5 minutes.
    Ms. Harrington-Watson. Thank you. Honorable Davis, 
Honorable Davis and Honorable Norton, I am happy to be here 
representing the national president, Mr. Gregory Reed. He is in 
Austin, TX on grand jury duty and sends his regrets.
    I was just looking at how in depth our presentation is, and 
you're absolutely right, 5 minutes would not do us justice, and 
I will not infringe upon going over that time.
    I'd like to just step through some of the pages and just 
raise some issues. Blacks in government, of course, represent 
African-American employees on the State, local, county and 
national level. And as we're here today to talk about the 
section level, we all are here letting you know that we are 
very much concerned about GS-9s and 13s who we consider to be 
the tremendous feeder pool that, as of today, feel they have no 
hope.
    We would like to encourage you to help us encourage our 
membership, because there is no possibility of increasing the 
numbers if we do not get our constituents to apply. And many of 
them at this point have given up.
    I would like to raise the attention of the panel to page 
12. I took the time to go through the entire GAO report, and 
you will see there the compilations of how African-American 
males and females compare in the 12 top agencies on size and 
then also how we fair as relates to SES in the five smallest 
agencies.
    From this chart alone you see our numbers are very small. 
When we looked at our feeder pools of GS-15s and 14s, there is 
an alarming statistic that you probably have also reviewed as 
you looked at the GAO report, and that is our feeder pool is in 
an age range where many of those GS-15s and 14s will be seeking 
retirement in the next 5 years.
    In our full report, we raise the question of what is going 
to happen with reforms as it relates to older workers in 
America, and we were very interested in the statistics and the 
information that was also provided in the additional GAO report 
on older workers in America, GAO 03307.
    We wanted to make a couple of recommendations that are also 
found in our report. One is that the leadership of America 
should not be one that is resting in agencies. We feel that 
appropriations are needed to develop future leaders of America, 
and we wish to suggest that may be an area that we could look 
at in the future, how does Congress finance leadership 
development so that it does go back to an appropriate higher 
level rather than throughout the individual agencies?
    Additionally, we wanted to just raise to you the 
possibilities of talking about other certification processes. 
Blacks in government feel that we are a tremendous training 
ground, as many other large employee organizations, and there 
could possibly, with an additional certification process where 
our leaders who serve for 2 to 4 years, could be certified by 
OPM.
    So as an alternative to some of these very expensive 
leadership programs, we know that on-job training is one of the 
highest levels of training that you could possibly get.
    I'd like to just conclude by just saying this is quite an 
opportunity. We have said a lot in our comments to you, but we 
know that as OPM steps out in the next few months with this 
trial program of candidate development, we would like to 
suggest strongly that there would be some uniformity in all 
CDPs that occur within every agency, also that there would be 
some uniformity in the way that nonCDP SESers are hired. CDP 
programs only represent 30 percent of all SESes. So where are 
the other 70 percent coming from, and exactly how do they get 
selected?
    We are also concerned about current employees of the 
government. They should have a better opportunity to apply for 
SES than outside selections.
    Thank you, Madam Chairwoman, for giving me this 
opportunity, and Blacks in government would just like to go on 
record saying we are here to provide assistance and support.
    Mrs. Davis of Virginia. Thank you, Ms. Harrington-Watson, 
for staying within the 5-minute time limit and summarizing an 
excellent statement that you brought to us.
    Ms. Wolfe, you're recognized for 5 minutes.
    Ms. Wolfe. Thank you. federally employed women [FEW], very 
much appreciates the opportunity to testify at this 
subcommittee hearing on diversity in the Senior Executive 
Service. On behalf of the over 850,000 women employed in the 
Federal Government and the military, we thank Chairwoman Davis, 
Ranking Member Davis, and Delegate Holmes Norton for conducting 
this very important meeting.
    FEW is a private nonprofit organization founded in 1968 
after Executive Order No. 1375 that added sex discrimination to 
the other forms of discrimination prohibited in the Federal 
Government was issued.
    As a private organization, FEW works to improve the status 
of women employed by the Federal Government. This includes 
contact with Congress to encourage progressive legislation, 
keeping our members informed of issues, and I would just also 
like to note that FEW does share delegate Holmes Norton's 
concern with the contracting-out issue and its impact on 
diversity.
    For over 35 years, federally Employed Women has been 
working to end sexual discrimination and to enhance 
opportunities for the advancement of women in government. We 
have an extensive training program at a national level, a 
regional level, and we work hard to try to provide women with 
the opportunities to enhance their skills so that they will be 
ready to take advantage of opportunities should they come 
along.
    FEW is quite diverse. Approximately one-third of our 
membership is comprised of minorities. At this time 
approximately 50 percent of our organization's leadership is 
comprised of minorities. I'm very proud of this diverse group 
of leaders. Our leaders come from about 21 States. FEW has also 
instituted a diversity program with the aim of developing 
strategies to identify and eliminate barriers within the 
Federal Government. This program is led by our national vice 
president for diversity.
    We also offer diversity training annually at our national 
training program and throughout the year at local events.
    As we all saw from the stats in the GAO study, we certainly 
acknowledge that there has been some improvement for women as a 
gender group in the last couple of years. These levels still do 
not represent actual employment levels of women and minorities 
currently serving in the Federal work force.
    In order to better reflect the demographics of the entire 
Federal work force, the SES composition should be at least 
somewhat comparable to employment levels of both women and 
minorities.
    OPM and the EEOC have provided some recommendations on how 
agencies and Federal departments can enhance diversity in their 
SES work forces, and of course we want to applaud OPM's 
initiative in creating the SES candidate development program. 
They have also included FEW as a stakeholder, and we are very 
appreciative of that. We believe that their program, which does 
include some rotational assignments, formal training, 
mentoring, etc., is definitely geared to helping women and 
minorities and disabled Federal workers move into the executive 
ranks of government.
    This type of program should be the model for all Federal 
agencies in creating a high quality SES that reflects the 
diversity of the work force.
    FEW supports the recommendations of these agencies, and 
certainly we applaud the agencies that were represented here 
today for their work in this area. We have some additional 
measures that we ask might be considered, and they really go to 
the thing that I've heard mentioned several times today, the 
feeder pools, these succession pools, because we believe that 
to have people get into the Federal executive service, the 
process has to start a lot sooner than when someone is ready at 
the higher level.
    Just as a very small starting point, include more women and 
minorities at top-level personnel and human resource meetings. 
Put more emphasis on providing opportunities for career ladder 
positions for women and minorities. Too often they're stuck in 
positions that offer no continuous upward mobility to even get 
them to the grade level of 14, the necessity for entering the 
Senior Executive Service.
    We also believe that agencies should provide guidance to 
their managers.
    Now, just to summarize and mention, FEW also was an active 
member of the No Fear Coalition, and we very much support that 
initiative.
    Again, we appreciate the subcommittee's interest in this 
issue and all the support that you have given Federal workers 
in the past. I'm very proud of the work that we do for the 
Federal Government, and simply want to ensure that all workers 
are given the same opportunity to enter the ranks of Senior 
Executive Service and that the Senior Executive Service truly 
represents the Federal work force. We believe a proactive 
approach to diversity will achieve much. I thank you all very 
much.
    Mrs. Davis of Virginia. Thank you, Ms. Wolfe.
    [The prepared statement of Ms. Wolfe follows:]

    [GRAPHIC] [TIFF OMITTED] T2901.051
    
    [GRAPHIC] [TIFF OMITTED] T2901.052
    
    [GRAPHIC] [TIFF OMITTED] T2901.053
    
    [GRAPHIC] [TIFF OMITTED] T2901.054
    
    [GRAPHIC] [TIFF OMITTED] T2901.055
    
    [GRAPHIC] [TIFF OMITTED] T2901.056
    
    [GRAPHIC] [TIFF OMITTED] T2901.057
    
    [GRAPHIC] [TIFF OMITTED] T2901.058
    
    Mrs. Davis of Virginia. Ms. Rix, you're recognized for 5 
minutes, and feel free to summarize.
    Ms. Rix. Thank you, Madam Chairwoman and members of the 
subcommittee. We're quite pleased, actually, very honored to be 
asked to come and speak before you today. I am the founder and 
co-chief executive officer of AVUE Technologies Corp. I started 
the company after a 5-year career with the Office of Personnel 
Management. The company is exclusively devoted on the practice 
of developing and providing services that are work force 
management solutions exclusively for the Federal Government 
sector.
    In addition to the 20 Federal agencies and departments that 
are our customers, we provide on a public service basis job 
information portals and have partnerships--formal partnerships 
signed with region 11 of Blacks in Government, which serves the 
Washington, DC, metro area; National Image, which is an 
organization that supports the education and employment of 
Hispanics and Latinos; the Federal Asian Pacific American 
Council; Black Data Processing Associates; and also the Senior 
Executives Association.
    Our principal effort in providing this public service is 
to, in fact, increase the capability of Federal Government 
agencies to reach out to a wider and more diverse audience and 
encourage individuals to not only apply for Federal positions, 
but also to understand the process by which individual Federal 
positions are filled and recruited in the Federal Government 
sector.
    A major feature of AVUE's system for its clients and also 
for the senior executive's association is a senior executive's 
portal that includes opportunities for employment in the Senior 
Executive Service for current employees as well as outside 
applicants that may be interested. It includes a wide variety 
of tools for applicants so that they understand, for example, 
what we mean when we talk about executive corps qualifications, 
how are those measured, how does one effectively address that, 
how does one build an effective resume to be entered and be 
considered fairly in the Senior Executive Service cadre.
    Our observations are principally associated around our 
experience in the Federal Government sector, and it is also 
principally associated around our current clients and a lot of 
the successes that they have achieved. We would start with the 
observation that SES diversity in and of itself, as you have 
heard, I think, a number of times today already, about the 
pipeline or the feeder pool, what we have as a basic 
observation is that Senior Executive Service diversity cannot 
be compartmentalized from general work force diversity, which 
cannot be compartmentalized from the available labor pool in 
the country, and it is very important not to isolate and not to 
feature a comparative analysis of underrepresentation in the 
Senior Executive Service against merely the pipeline that 
currently feeds the senior executive service.
    Now, to paraphrase an earlier comment here, you know, if 
you always do what you've always done, you'll always get what 
you always got. So we are in the process here of helping our 
customer agencies and helping our affiliate partners to go 
forward and to establish, in essence, a new trend line and a 
new method of evaluation and examination of opportunities.
    We feel that external recruitment must be considered as a 
fundamental source of representation and the improvement of 
representation in the Senior Executive Service. I did not hear 
today and I don't know if you are aware of the statistic that 
the GS-14 and 15 pipeline in the Federal Government today is 
basically filled from within government ranks currently. In 
fact, the trend line in looking at OPM's central personnel data 
file statistics is that 99 percent of the 14s and 15s in the 
Federal Government today come from within. So you must examine 
a multifaceted, multitiered layer of how the government goes 
through the process of recruiting.
    It is also true that agencies do differ substantially as to 
what is a good comparative analysis of what they need and what 
is available and how we recruit in the Federal Government 
sector. I think that MD-715 EEOC's new directive on 
accountability measures and the recruitment process along with 
the no fear legislation basically reinforces existing the 
statute, but adds additional accountability levers into that 
statute.
    One of the things that is very important here is that 
agencies be able to track their applicant flow data to be able 
to measure continuously whether their recruitment is, in fact, 
effective and whether their recruitment produces the right 
result and perhaps their selection process does not or whether 
this selection process is, in fact, producing the right result; 
but they need to increase their outreach and their recruitment 
efforts. At AVUE, our current customer clients currently we 
have a statistic that 93.64 percent as of today of all 
applicants that apply for Federal Government agency clients 
that are AVUE agencies voluntarily report their race, sex and 
national origin data.
    This is an important statistic. Because of EEOC's 
management directive, what this allows us to do is actually 
measure concretely and provide metrics on the recruitment 
process and on recruitment sources and on where our applicant 
prospect pool is coming from, not just the accomplishment as a 
result of the selection process.
    AVUE provides its client agencies with data that allows 
them to see every phase of the process and to see how the 
applicant pool progresses through phases of the process.
    I am out of time. So I just want to make one last statement 
that I think is an important statement here.
    It is imperative that the government continue to go through 
the process of the most aggressive and most successive outreach 
it can possibly utilize to globally disseminate job information 
to the widest possible audience. Today we are in danger of 
having the Office of Personnel Management make the USA job site 
the only information portal for job information. We would urge 
you to reconsider that as it is fundamentally contrary to the 
entire understanding and mechanisms by which outreach operate. 
We need to provide more information to more people and increase 
the diversity of our recruitment pool and not do less.
    So in closing, what I would like to do is thank you again 
for this opportunity and to also say that part of our written 
submittal includes some agency success stories relative to how 
we are able to actually materially change managerial behavior, 
the process and transparency of the process that helps agencies 
not only meet their existing objectives and existing 
regulation, but new regulations as promulgated by MD-715 and 
the No Fear Act. Thank you.
    Mrs. Davis of Virginia. Thank you, Ms. Rix.
    And thank you all for your testimonies.
    [The prepared statement of Ms. Rix follows:]

    [GRAPHIC] [TIFF OMITTED] T2901.059
    
    [GRAPHIC] [TIFF OMITTED] T2901.060
    
    [GRAPHIC] [TIFF OMITTED] T2901.061
    
    [GRAPHIC] [TIFF OMITTED] T2901.062
    
    [GRAPHIC] [TIFF OMITTED] T2901.063
    
    [GRAPHIC] [TIFF OMITTED] T2901.064
    
    [GRAPHIC] [TIFF OMITTED] T2901.065
    
    [GRAPHIC] [TIFF OMITTED] T2901.066
    
    [GRAPHIC] [TIFF OMITTED] T2901.067
    
    [GRAPHIC] [TIFF OMITTED] T2901.068
    
    Mrs. Davis of Virginia. I'm going to go to Mr. Davis. We 
had a lot of testimony there, and I'm sure that we're going to 
have questions that we can't get in today in the time limit 
that we will submit to you in writing if you could get it back 
to us for the record.
    And Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Madam 
Chairwoman.
    Ms. Chambers, let me ask you first. We've talked a great 
deal about the Office of Personnel Management candidate 
development program. You sort of indicated that OPM itself 
didn't have such a good record when it comes to Asian 
Americans. Are you suggesting that you don't have confidence in 
their program or that their program may not generate the kind 
of results that you're looking for?
    Ms. Chambers. The candidate development program that OPM is 
putting together right now is a new program. It hasn't actually 
gone into effect. So, I mean, it's a matter of, you know, 
waiting and see how it goes. And so I think they are making a 
lot of effort to include groups such as the Asian Pacific 
American government networks to give input in the design of the 
program and other groups on the panel have also been involved. 
But so far the--as far as history goes, the only APA that I'm 
aware of that is an SES rank since the last 10 years, 13 years, 
was just appointed recently. So hopefully from now on, it will 
be much better.
    Mr. Davis of Illinois. So you're saying that you do have 
hope, but you're just pointing out that the history has not 
been so good, and that change appears to be on the way. I'm 
saying--my mother used to tell us, you know, what you do speaks 
so loudly, I can't hear what you're saying. And, you know, that 
sort of resonated a great deal. So you're not saying that you 
don't think the program will not net some results, but just up 
to this point you have not seen--coming from the leader. Of 
course, they haven't always been around and haven't always been 
the agency that they are, and so hopefully there is movement.
    Ms. Chambers. I think the fact that this subcommittee and 
yourself have gotten involved in addressing this issues is 
definitely helping to push forward, you know, the momentum, 
give it momentum. So appreciate that very much.
    Mr. Davis of Illinois. Thank you.
    Ms. Wolfe, you know, the GAO report suggested that unless 
there is some intervention, that the only real change by 2007 
will be the diminution of White males but an increase with 
White females. No movement necessarily for other population 
entities. Do you have any idea as to why they would arrive at 
that conclusion?
    Ms. Wolfe. I wish I had a magic answer to that. I don't. 
Now, again, it may be--now, as Ms. Chambers mentioned, 
something to do with history. I think clearly if things are to 
change, there has to be more of an outreach effort. There has 
to be more of getting people in this pipeline that we keep 
talking about. Perhaps agencies could develop some criteria. 
Certainly we would encourage them to participate in the OPM 
candidate development program, but that's at the end of the 
line, so to speak, perhaps develop some criteria for getting 
people more in the mid-level manager positions that would again 
provide some minorities. And we have the idea of perhaps 
including them in different meetings, giving opportunities for 
some cross-training rotational assignments, that kind of thing.
    Mr. Davis of Illinois. I've always been--I've always looked 
at this whole business of subjectivity and tried to figure how 
it is that individuals can make decisions on an objective basis 
or how a reporter can write a story and not inject some of him 
or her self into it, or how an analyst can make an analysis and 
not inject some of their feeling about whatever the issue is 
into it.
    Mr. Brown, do you think that subjectivity--I mean, you 
mentioned this one person, whoever might be, that subjectivity 
has played too much of a role in making these promotions 
happen.
    Mr. Brown. Absolutely, Congressman. In fact, my belief is 
that we're somewhat focused on the wrong portion of the issue 
here. We've been having a lot of talk about getting candidates 
into the pipeline and so forth, and I totally support that and 
we must do that; but I would offer to you that the bigger issue 
is not the pool of candidates, but the pool of selecting 
officials and the attitudes and the subjectivity that they use 
in making their decisions.
    Mr. Davis of Illinois. Can I just quickly, Ms. Watson, you 
placed a lot of emphasis on concern for the pool. You mentioned 
GS-9s and 10's and that kind of thing.
    Ms. Harrington-Watson. Yes, sir.
    Mr. Davis of Illinois. Do you agree with Mr. Brown? That 
or----
    Ms. Harrington-Watson. Yes. I do agree with his summary, 
but let me just add two things between both of these Houses 
that I'm sitting in between, those who have made it and the 
women pool. When you look from the African-American female 
perspective or the African-American male perspective, I can say 
that I do terribly disagree with total outside recruitment over 
increasing outside recruitment, because you have people, as Mr. 
Brown has said, that have been struggling for 10, 15 years 
trying to get to a 14- or a 15- and then to see that completely 
dashed with any possibilities of ever making it to an SES 
because outside recruitment is so heavy already.
    We look at this from Blacks in government perspective that 
if you look at the age of the average 14 and 15 right now, and 
you look at the lack of possibilities, we will not see any 
change for African-Americans, because we're not going to be 
there in any substantial number to even be considered in a few 
years. So our plight is a little more--a little different than 
some of the other categories, but there is no substantial 
change even in the candidate development concept.
    I want to step back to one question you were asking--I 
think I heard the question underlying when you were talking to 
Ms. Chambers about where is the real problem in the 
decisionmaking. When we first went to OPM as stakeholders, it 
was raised that every person representing OPM in that room was 
a White male that was making decisions on the SES candidate 
development program. There were no White females. There were no 
Black females. There were no minorities represented. So if all 
the decisionmakers on the leadership of our country are coming 
from one segment, I would say that we really have not made a 
lot of progress.
    Mr. Davis of Illinois. So you're saying we've got to train 
the trainers essentially. I have no further questions, Madam 
Chairwoman, but I appreciate that.
    Mrs. Davis of Virginia. Thank you, Mr. Davis. I'm sure I'm 
going to have a lot of questions after I leave here, but right 
now I want to zero in on you, Ms. Chambers. And you gave a lot 
of statistics there, and I'm hoping you have an answer that I 
asked the previous panel. When I asked Ms. Barnart about the 
Patent Office, and she gave me a very large percentage of Asian 
folks that were working there, I think 22 percent, do you 
happen to know what percentage of the SES in the patent side of 
the office are Asian?
    Ms. Chambers. Well, this is a very interesting question, 
because I am from the Patent Trademark Office.
    Mrs. Davis of Virginia. That's why I'm asking the question.
    Ms. Chambers. And I can tell you on the patent side as far 
as Asian American--Asian Pacific Americans go, there are--let's 
see. There are three Asian Pacific Americans, two males and one 
female. And I'm the one female.
    Mrs. Davis of Virginia. Out of--and that is SES?
    Ms. Chambers. SES.
    Mrs. Davis of Virginia. Out of how many?
    Ms. Chambers. Out of 24 group directors. As Ms. Barnart 
said, the group director position is highly technical, 
specialized. So they manage the 10 examining groups. So there 
are a total of 24 group directors; and of the 24, three Asians 
including myself. And as far as--I'm trying to think--African-
American goes, I think there is two African-American women and 
no Hispanic.
    Mrs. Davis of Virginia. No African-American males, just 
women?
    Ms. Chambers. Just women at this time.
    Mrs. Davis of Virginia. If our math is right, that's 8 
percent Asian Pacific Americans out of 22 percent in the pool. 
Is that about right? Eight percent that are SES out of 22 
percent in the pool?
    Ms. Chambers. Yeah.
    Mrs. Davis of Virginia. I'm sure I've got a lot of 
questions for the rest of you. I've got to tell you, Ms. 
Harrington-Watson, you did an excellent job summarizing your 
statement, and I really appreciate it. So don't think we missed 
anything.
    Ms. Harrington-Watson. Thank you. I was wondering if I was 
going to get that compliment. I really tried.
    Mrs. Davis of Virginia. You did an excellent job, you 
certainly did. You get an A plus in my book.
    I want to thank all of you for being here. We did have a 
very long hearing and a lot of witnesses. But we heard a lot. 
And I will just say to you, Ms. Harrington-Watson, what you 
said about not liking going outside of the Federal Government 
to find those who move up, that puts us back, if I'm not 
mistaken, Mr. Davis, puts us back in the same dilemma if we did 
that. If the diversity level right now is low and if we had to 
pull from the pool of the low percentage, we can't ever 
increase the percentage.
    Ms. Harrington-Watson. Well, let me just give you a 
scenario, and just see what you think about this opinion. We 
may be talking about low pools, but when there is no selection 
within the available pool, that is the real issue at hand. If 
you have a limited number, yes, I agree, let's go outside, 
let's recruit, really recruit; but in most agencies, you have 
anywhere from 5 to 15 percent in those 14, 15 levels already.
    Mrs. Davis of Virginia. Of minorities?
    Ms. Harrington-Watson. Of minorities. And they are not 
making the highly qualified list.
    Now, there are a lot of reasons, many we would like to 
explore in the future. In fact, that was one of the questions 
to OPM is how can you help us identify what you see as the 
shortcoming for minorities when they apply for SES positions, 
because as you know when you go through that ECQ process and if 
you don't write in the first person, if you don't put certain 
data there, then you're just completely knocked out.
    So if we're not making the connection in application 
processing, let's work on that. If we're not making the 
connection based on first line elimination, which happens at 
many agencies where the first line supervisor decides which 
candidates to even send forward, then let's work on that.
    If the certification process is where we're losing those 
minorities that we feel like are highly qualified and have been 
working in agencies 10, 15 years, then let's work on that.
    Right now I would think that we are void on enough data to 
understand what are the shortcomings and the inside candidates 
receiving true consideration.
    Mrs. Davis of Virginia. Well, it's certainly a lot of food 
for thought for us here, and I'm sure this isn't the last that 
we've heard of this subject. And I'm certainly going to work 
with my colleague, Mr. Davis, to see what we can do. You know, 
it used to be that I thought White females were part of the 
minority, but I see here today we're not based on this 
breakdown. And everybody told me we've come a long way, baby, 
but not necessarily up here on the Hill. So I understand what 
you're saying.
    Anyway, I thank you all for being here today and for your 
patience, and like I said, we will submit questions to you 
for----
    Mr. Oliverez. Madam Chairwoman, may I say something?
    Mrs. Davis of Virginia. Sure.
    Mr. Oliverez. (Speaks in Spanish.).
    Mrs. Davis of Virginia. I have no idea what you said, but 
thank you. Thank you all. Thank you. The hearing is adjourned.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T2901.088

[GRAPHIC] [TIFF OMITTED] T2901.089

[GRAPHIC] [TIFF OMITTED] T2901.090

[GRAPHIC] [TIFF OMITTED] T2901.091

[GRAPHIC] [TIFF OMITTED] T2901.092

[GRAPHIC] [TIFF OMITTED] T2901.093

[GRAPHIC] [TIFF OMITTED] T2901.094

[GRAPHIC] [TIFF OMITTED] T2901.095

[GRAPHIC] [TIFF OMITTED] T2901.096

[GRAPHIC] [TIFF OMITTED] T2901.097

[GRAPHIC] [TIFF OMITTED] T2901.098

[GRAPHIC] [TIFF OMITTED] T2901.099

[GRAPHIC] [TIFF OMITTED] T2901.100

[GRAPHIC] [TIFF OMITTED] T2901.101

[GRAPHIC] [TIFF OMITTED] T2901.102

[GRAPHIC] [TIFF OMITTED] T2901.103

[GRAPHIC] [TIFF OMITTED] T2901.104

[GRAPHIC] [TIFF OMITTED] T2901.105

[GRAPHIC] [TIFF OMITTED] T2901.106

[GRAPHIC] [TIFF OMITTED] T2901.107

[GRAPHIC] [TIFF OMITTED] T2901.108

[GRAPHIC] [TIFF OMITTED] T2901.109

[GRAPHIC] [TIFF OMITTED] T2901.110

[GRAPHIC] [TIFF OMITTED] T2901.111

[GRAPHIC] [TIFF OMITTED] T2901.112

[GRAPHIC] [TIFF OMITTED] T2901.113

[GRAPHIC] [TIFF OMITTED] T2901.114

[GRAPHIC] [TIFF OMITTED] T2901.115

[GRAPHIC] [TIFF OMITTED] T2901.116

[GRAPHIC] [TIFF OMITTED] T2901.117

[GRAPHIC] [TIFF OMITTED] T2901.118

[GRAPHIC] [TIFF OMITTED] T2901.119

[GRAPHIC] [TIFF OMITTED] T2901.120

[GRAPHIC] [TIFF OMITTED] T2901.121

[GRAPHIC] [TIFF OMITTED] T2901.122

[GRAPHIC] [TIFF OMITTED] T2901.123

[GRAPHIC] [TIFF OMITTED] T2901.124

[GRAPHIC] [TIFF OMITTED] T2901.125

[GRAPHIC] [TIFF OMITTED] T2901.126

[GRAPHIC] [TIFF OMITTED] T2901.127

[GRAPHIC] [TIFF OMITTED] T2901.128

                                 <all>

</pre></body></html>
